<html>
<title> - MANAGING DIVERSITY OF SENIOR LEADERSHIP IN THE FEDERAL WORKFORCE AND POSTAL SERVICE</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 MANAGING DIVERSITY OF SENIOR LEADERSHIP IN THE FEDERAL WORKFORCE AND 
                             POSTAL SERVICE

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                                and the

                      SUBCOMMITTEE ON OVERSIGHT OF
                       GOVERNMENT MANAGEMENT, THE
                       FEDERAL WORKFORCE, AND THE
                          DISTRICT OF COLUMBIA

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2008

                               __________

                           Serial No. 110-82

                               __________

   Printed for the use of the Committees on Oversight and Government 
         Reform and Homeland Security and Governmental Affairs


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
44-913 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
               Thomas Richards, Professional Staff Member
             Jennifer A. Hemingway. Minority Staff Director
       Theresa Manthripragada, Minority Professional Staff Member
                     Jessica Nagasako, Chief Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 3, 2008....................................     1
Statement of:
    Bransford, William, general counsel, Senior Executives 
      Association; William Brown, president, African American 
      Federal Executives Association; Rhonda Trent, president, 
      Federally Employed Women; Carson Eoyang, executive 
      director, Asian American Government Executives Network; 
      Jose Osegueda, president, National Association of Hispanic 
      Federal Executives; and Darlene Young, president, Blacks in 
      Government.................................................   143
        Bransford, William.......................................   143
        Brown, William...........................................   152
        Eoyang, Carson...........................................   165
        Osegueda, Jose...........................................   172
        Trent, Rhonda............................................   158
        Young, Darlene...........................................   173
    Kichak, Nancy, Associate Director, Strategic Human Resources 
      Policy Division, Office of Personnel Management; and Susan 
      LaChance, vice president of employee development and 
      diversity, U.S. Postal Service.............................    25
        Kichak, Nancy............................................    25
        LaChance, Susan..........................................    31
    Stalcup, George H., Director, Strategic Issues, Government 
      Accountability Office; and Katherine Siggerud, Director, 
      Physical Infrastructure, Government Accountability Office..    53
        Siggerud, Katherine......................................   108
        Stalcup, George H........................................    53
    Williams, Steven W., secretary and chief administrative 
      officer, Postal Regulatory Commission; Ronald Stith, 
      assistant inspector general for mission support, U.S. 
      Postal Service, Office of the Inspector General; Nicole A. 
      Johnson, assistant chief inspector investigations and 
      security support, U.S. Postal Inspection Service; Bray 
      Barnes, Acting Chief Human Capital Officer, Department of 
      Homeland Security; and Carmen Walker, Deputy Officer, 
      Office for Civil Rights and Civil Liberties, Department of 
      Homeland Security..........................................   116
        Barnes, Bray.............................................   132
        Johnson, Nicole A........................................   124
        Stith, Ronald............................................   118
        Williams, Steven W.......................................   116
Letters, statements, etc., submitted for the record by:
    Akaka, Senator Daniel K., a Representative in Congress from 
      the State of Hawaii, prepared statement of.................    11
    Barnes, Bray, Acting Chief Human Capital Officer, Department 
      of Homeland Security, prepared statement of................   134
    Bransford, William, general counsel, Senior Executives 
      Association, prepared statement of.........................   145
    Brown, William, president, African American Federal 
      Executives Association, prepared statement of..............   154
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    23
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     4
    Eoyang, Carson, executive director, Asian American Government 
      Executives Network, prepared statement of..................   167
    Gonzalez, Hon. Charles A., a Representative in Congress from 
      the State of Texas, prepared statement of..................    19
    Johnson, Nicole A., assistant chief inspector investigations 
      and security support, U.S. Postal Inspection Service, 
      prepared statement of......................................   126
    Kichak, Nancy, Associate Director, Strategic Human Resources 
      Policy Division, Office of Personnel Management:
        Letter dated May 15, 2008................................    46
        Prepared statement of....................................    27
    LaChance, Susan, vice president of employee development and 
      diversity, U.S. Postal Service, prepared statement of......    33
    Marchant, Hon. Kenny, a Representative in Congress from the 
      State of Texas, prepared statement of......................     7
    Stalcup, George H., Director, Strategic Issues, Government 
      Accountability Office, prepared statement of...............    55
    Stith, Ronald, assistant inspector general for mission 
      support, U.S. Postal Service, Office of the Inspector 
      General, prepared statement of.............................   120
    Trent, Rhonda, president, Federally Employed Women, prepared 
      statement of...............................................   160


 MANAGING DIVERSITY OF SENIOR LEADERSHIP IN THE FEDERAL WORKFORCE AND 
                             POSTAL SERVICE

                              ----------                              


                        THURSDAY, APRIL 3, 2008

        Subcommittee on Federal Workforce, Postal Service, 
            and the District of Columbia, Committee on 
            Oversight and Government Reform, House of 
            Representatives, joint with the Subommittee on 
            Oversight of Government Management, the Federal 
            Workforce, and the District of Columbia, 
            Committee on Homeland Security and Governmental 
            Affairs, U.S. Senate,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2 p.m. in 
room 2154, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the House Subcommittee on Federal Workforce, 
Postal Service, and the District of Columbia) presiding.
    Present from the House Committee on Oversight and 
Government Reform, Subcommittee on Federal Workforce, Postal 
Service, and the District of Columbia: Representatives Davis of 
Illinois, Cummings, Kucinich, Clay, Norton, and Marchant.
    Present from the Senate Committee on Homeland Security and 
Governmental Affairs, Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of 
Columbia: Senators Akaka and Carper.
    Also present: Representative Charles Gonzalez.
    Staff present from the House Committee on Oversight and 
Government Reform and the Subcommittee on Federal Workforce, 
Postal Service, and the District of Columbia: Tania Shand, 
staff director; Lori Hayman, counsel; William Miles, 
professional staff member; Marcus A. Williams, clerk; Earley 
Green, chief clerk, Committee on Oversight and Government 
Reform; Jim Moore, minority counsel; and Alex Cooper, minority 
professional staff member.
    Mr. Davis of Illinois. The subcommittees will come to 
order.
    Welcome, Ranking Member Marchant, Senator Akaka, Mr. 
Chairman and members of both subcommittees, hearing witnesses, 
and all of those in attendance, welcome to the House 
Subcommittee on the Federal Workforce, Postal Service, and the 
District of Columbia and the Senate Subcommittee on Oversight 
of Government Management, the Federal Workforce, and the 
District of Columbia joint hearing on managing diversity of 
senior leadership, Postal Service and the District of Columbia.
    The purpose of the hearing is to continue the 
subcommittee's oversight of diversity at the highest levels of 
the Federal Government and the U.S. Postal Service.
    Hearing no objection, the Chair will ask unanimous consent 
to allow Representative Charles Gonzalez to give an opening 
statement and ask questions. And also the ranking member and 
the subcommittee members will each have 5 minutes to make 
opening statements, and all Members will have 3 days to submit 
statements for the record.
    Hearing no objection, it is certainly indeed a pleasure to 
be joined with Senator Akaka and his staff and any other 
Members of the Senate who come over to this side of the Capitol 
and jointly participate with us.
    I will begin with an opening statement.
    Senator Akaka, Ranking Member Marchant, members of the 
subcommittee, and hearing witnesses, welcome to the 
subcommittee's hearing on managing diversity of senior 
leadership in the Federal work force and Postal Service.
    I would also like to welcome Representative Charles 
Gonzalez, Second Vice Chair of the Hispanic Congressional 
Caucus. I ask unanimous consent that Representative Gonzalez be 
permitted to give an opening statement and ask questions during 
the hearing.
    Hearing no objection, so is the order.
    He has worked tirelessly to ensure that Hispanics are 
included in the diversification of the Federal work force.
    Today's hearing is to examine H.R. 3774 and its Senate 
companion, S. 2148, the Senior Executive Service Diversity 
Assurance Act of 2007.
    H.R. 3774 is the culmination of several Government 
Accountability Office [GAO], reports I have requested on 
diversity in the Senior Executive Service [SES], and three 
previous hearings I have held or requested on the subject.
    GAO is expected to testify that, while doing research for 
the most recent diversity report, a report that I and Senator 
Akaka requested, it found that between 2000 and 2007 there was 
a decrease in African American men in the SES. I believe that 
H.R. 3774 is the first step in tackling several of the issues 
that have come to light regarding the lack of diversity in the 
SES. It should be enacted as soon as possible to prevent any 
further deterioration of minorities in the Senior Executive 
Service.
    The subcommittee has taken its first steps in researching 
diversity issues in postal-related agencies. Today the postal 
community and GAO will testify as to how diverse the senior 
levels of postal management are or not, and why. When its 
research is complete, the subcommittee will determine whether 
legislative action is necessary to address diversity in the 
postal work force.
    The Department of Homeland Security [DHS], has been asked 
to testify because last month the Committee on Homeland 
Security issued a report entitled, ``The Department of Homeland 
Security: Minority and Gender Diversity in the Workforce and 
Career Senior Executive Service.'' The report stated that DHS 
had lower proportions of racial minorities, Hispanics, and 
women in its overall work force than there are in the overall 
executive branch work force, but the DHS career SES was even 
less diverse than the overall DHS work force, suggesting that 
relatively few members of minority groups and woman rise in the 
DHS career SES leadership ranks.
    Diversity in the Federal and postal work forces is a 
priority for me and for this subcommittee. When agencies are 
called upon, they should be prepared to come before this 
subcommittee and testify on its diversity numbers and 
objectives.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.001
    
    [GRAPHIC] [TIFF OMITTED] T4913.002
    
    Mr. Davis of Illinois. Now I will go to Ranking Member 
Marchant.
    Mr. Marchant. Thank you, Mr. Chairman, for holding the 
hearing today, Managing Diversity of Senior Leadership in the 
Federal Workforce and Postal Service. I commend your efforts to 
improve the operations of the Federal Government, as well as 
your vigorous promotion of increased diversity in the 
workplace. I look forward to this and continued discussions of 
how we can make the Federal Government a better place to work.
    Obviously, the American business landscape is changing much 
faster than Federal agencies. In a sense, this creates a giant 
laboratory for policymakers to observe and learn what is 
working in the private sector and what might not be best for 
the Government setting. If done correctly, this oversight 
process can improve the workings of the Federal Government and 
make it an even better place to work. However, implementing 
policy changes without full consideration of the consequences, 
both intended and unintended, could end up adding additional 
bureaucracy to a system already beleaguered by low application 
numbers and relatively uncompetitive compensation packages.
    Thank you again, Mr. Chairman, for giving us a chance to 
study this issue. I look forward to the testimony from our 
witnesses before the subcommittee.
    I hope we can all work together to determine the best ways 
to reach our diversity goals, while avoiding creating a 
bureaucratic morass where everyone is unsatisfied.
    [The prepared statement of Hon. Kenny Marchant follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.003
    
    [GRAPHIC] [TIFF OMITTED] T4913.004
    
    Mr. Marchant. Mr. Chairman, I need to offer my apologies to 
the witnesses and you today. The largest city in my district 
has decided that this afternoon they are going to visit me, so 
shortly I will have to excuse myself and go and take care of 
some of my constituents. My apologies for that, Mr. Chairman.
    Mr. Davis of Illinois. How large is that city?
    Mr. Marchant. It is Dallas.
    Mr. Davis of Illinois. That is a pretty large city. Well, 
thank you very much, Mr. Marchant. We certainly understand, and 
we certainly want to thank you for your statement and hope to 
have you with us as long as you can stay.
    It is now my pleasure to yield for an opening statement to 
the distinguished Senator from Hawaii, Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. It is 
great to be here with you, and always great working with you, 
Chairman Davis. I want to thank you for leading this joint 
hearing on diversity in the Senior Executive Service, and I 
want to commend you for your leadership in this area, not only 
now but in years before this.
    I am pleased to partner with Chairman Davis, both on this 
hearing and in legislation to improve diversity in the senior 
ranks of the Federal Government.
    I also want to thank him for joining me even yesterday to 
introduce a resolution honoring all public servants during 
Public Service Recognition Week this year.
    Diversity of race, gender, heritage, and experience 
provides any organization with a valuable range of perspectives 
and ideas that can improve effectiveness. That is our belief.
    When an agency is developing new policies and initiatives, 
a diverse work force helps ensure a cultural understanding that 
can lead to new creative directions or avert unintended 
problems before they arise. Unfortunately, the number of 
minorities and women in the SES across the Federal Government 
has not reflected the diversity of the Nation, nor the 
diversity of the Federal work force as a whole.
    In 2003, the Government Accountability Office evaluated 
data from 2000 on diversity in the SES. At that time, the 
report showed 67 percent of senior executives were White males, 
19 percent were White females, and about 14 percent were 
minority males and females. According to GAO's testimony last 
year, using 2006 data there were small improvements made in the 
overall representation of women and minorities over the past 6 
years, but gains were inconsistent among the 25 Federal 
agencies analyzed, and offset by losses of women and minorities 
at 9 of those agencies.
    The door to diversity seems to be narrowing, even as 
American work force becomes more diverse. And Federal 
retirements continue to increase. That is what we are facing 
today.
    In its 2003 report GAO speculated that 55 percent of the 
SES would retire and diversity of the SES would improve, given 
the diversity of the talent pool. The Office of Personnel 
Management, in its response to GAO, insisted that increasing 
diversity in the senior ranks was a top priority, but OPM's own 
numbers prove it wrong.
    While 63 percent of the SESers retired since 2000, the 
potential gains estimated by GAO and OPM to improve diversity 
have not been made. We need to examine why more minorities and 
women are not becoming part of the SES and how to improve that 
shortfall.
    With an estimated 90 percent of Federal executives eligible 
to retire in the next 10 years, agencies must take this 
opportunity for agencies to bring in a new group of diverse and 
talented leaders.
    One way that Congressman Davis and I propose we address 
this issue is through the enactment of the Senior Executive 
Diversity Assurance Act. Our legislation would create a panel 
of diverse employees responsible for reviewing candidates for 
merit appointments and passing them along for review. Too many 
executive candidates are accepted into the SES without a woman 
or minority ever looking at the available pool of applicants.
    Our bill requires that diversity be incorporated into the 
process of review, but not in the standards of the review. The 
standards are high for entry into the SES, and we need to 
continue to ensure that the merit system principles are 
supported in the process of candidate review. However, 
diversity is not at odds with merit system principles, and we 
believe that our legislation supports merit principles, while 
promoting diversity.
    Furthermore, our legislation re-establishes the Senior 
Executive Resource Office, which was dissolved by OPM's 
reorganization in the year 2003. This office would be 
responsible for ensuring diversity within the SES through 
strategic partnerships, mentorship programs, and more stringent 
reporting requirements. New cultures bring new ideas, and in 
our Civil Service, America's work force, in that work force we 
need leadership that reflects those varied cultures and 
backgrounds.
    I want to thank our witnesses for being here today to 
discuss this official and critical issue, and I look forward to 
hearing your thoughts on improving diversity in the senior 
leadership of the Federal Government.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Daniel K. Akaka 
follows:]

[GRAPHIC] [TIFF OMITTED] T4913.005

[GRAPHIC] [TIFF OMITTED] T4913.006

[GRAPHIC] [TIFF OMITTED] T4913.007

[GRAPHIC] [TIFF OMITTED] T4913.008

    Mr. Davis of Illinois. Thank you very much, Senator Akaka.
    Delegate Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I think all 
of us are indebted to you and Senator Akaka for your leadership 
on moving forward to do something about what has become a 
chronic problem in the SES. We talk a lot about it. We hear 
back from various administrations that they are working very 
hard to do something about it, but with matters of this kind, 
unless the kind of action your Diversity Assurance Act takes, 
you are not going to see, in my judgment and in my experience, 
what you are expecting.
    Mr. Chairman and Senator Akaka, as we look at a country 
that is becoming more and more diverse, with some States 
already majority minority States, we are seeing a Senior 
Executive Service that is less and less diverse. The tiny 
incremental change really means that it is going down; that as 
retirements come, replacements are being made from the same 
pool of people who already occupy the Senior Executive Service. 
It is stunningly at odds with what we see in certain sections 
of the private sector, for example.
    What Chairman Davis said about Black men actually being 
reduced is just the tip of the iceberg. I think we can predict 
that without some definitive action you are going to see this 
kind of reduction throughout, for two reasons: one, minority 
applicants today do not have the same incentive either to work 
for or stay in the Federal Government that they had in my 
generation and in my parents' generation. The private sector is 
out there looking for them, reaching for them, giving them the 
kind of benefits and pay that, frankly, we do not give them.
    Second, we should be focusing on two things: recruitment, 
to be sure, beginning at the levels where people can move up, 
and retention. Yes, there is every incentive to get out of the 
Federal work force now. You have been in the work force, you 
have received all the benefits and training of the Federal work 
force, you look at the private sector and it does seem to me 
that economically there is every incentive to leave early 
retirement, certainly for retirement, itself.
    I have a special interest and concern, frankly, for newer 
minority entrants to the work force like Hispanics. It does 
seem to me one would have to make a very special effort when we 
see what is the fastest-growing minority population in our 
country, a population that may not be as accustomed to looking 
to the Federal sector as a place for employment, where a very 
special effort needs to reach out to draw them in and to 
encourage them to move up so that they, in fact, become a 
larger part of the SES.
    I have a very special, very special concern about African 
Americans who have a very, very long history of work in the 
Federal sector, who were able to work in the Federal sector, 
frankly, when they couldn't work anywhere else, albeit in the 
bowels of the Federal sector, and then have found themselves 
for a long time stuck. And now, although they are long-term 
employees going back for decades, even when, if I may say so, 
Mr. Chairman, as a native Washingtonian, when Black people 
couldn't even eat lunch in the cafeterias of Federal agencies, 
still there were Federal employees working in the lower levels. 
Long history of work in the Federal Government. So there would 
be very special disappointment to see that the Senior Executive 
Service looks the way it looks today.
    I recognize the bill that you and Chairman Akaka have put 
in, particularly with its requirement that there be a woman and 
a person of color on panels, may seem to be radical. All I can 
say is, after years and years of jawboning the issue, I am 
grateful that you are willing to take the leadership on doing 
something about it. The courts have said that it, in fact, is 
legal and Constitutional and in keeping with merit system 
principles.
    If I may offer a legal opinion as the former Chair of the 
EOC, I regard it as an action that would withstand and has 
withstood court scrutiny because it is an action to correct a 
disparity that the Federal Government cannot explain, cannot 
justify. It will disappear and the courts will make it 
disappear at such point when, in fact, the system corrected 
itself. That is the way this kind of affirmative remedy works.
    Unless the administration has something to offer the two 
chairs that will assure that we get some movement on this 
issue, as we have not gotten for decades, then it seems to me 
this is the only recourse before us, and we all should be 
grateful to you for having the guts to move forward with the 
provisions in the bill.
    Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Delegate 
Norton.
    We will now go to Representative Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman. And to my good 
friend, Congressman Davis, and to my good friend, Senator 
Akaka, thank you very much for holding this hearing.
    When you look through the table on the GAO report which 
charts the comparisons of various demographic profiles year to 
year at various supervisory levels in the departments of the 
Federal Government, it makes it clear that the work of this 
committee is well taken in causing these statistics to be 
reviewed, because they tell a very important story of the 
progress or lack thereof when it comes to various individuals 
who have committed themselves to serve the people of the United 
States of America.
    When we understand, as we do today on this commemoration 
day of Dr. Martin Luther King, that true equality means 
equality of opportunity within organizations once you become a 
member of that organization, studying these figures becomes 
very important to give this committee and this Congress an 
opportunity to develop policy guidelines so that the diversity 
which the people of the United States have a right to expect in 
their Government since our first motto, e pluribus unum, out of 
many we are one, ought to be reflected in the Government, but 
we also ought to see how it is reflected in the highest-ranking 
positions within the Civil Service.
    This is an important hearing, and I thank my colleagues 
from the House and the Senate for your leadership in this. 
Thank you.
    Mr. Davis of Illinois. Thank you very much, Representative 
Kucinich.
    Now it is my pleasure to yield to Representative Charles 
Gonzalez.
    Yes, Senator Akaka?
    Senator Akaka. I just received word that we are going to 
have votes in the Senate, and I just want to apologize for 
leaving, but I want to again commend your leadership on this 
issue and tell you and all of our witnesses here that I look 
forward to working with all of you to improve the diversity of 
the senior levels of the Federal Government.
    Thank you for all that you are doing, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Senator. We 
know that when the Senate votes, good things are happening, so 
we understand. Thank you.
    Mr. Gonzalez. Thank you very much, Mr. Davis and Senator 
Akaka and members of the subcommittee. Thank you for allowing 
me to participate in today's hearing. On behalf of the 
Congressional Hispanic Caucus, I appreciate your efforts to 
address the under-representation of minorities at the executive 
level in the Federal work force.
    The legislation that both of you have introduced, H.R. 3774 
on the House side, the Senior Executive Service Diversity 
Assurance Act, is a step in the right direction to address the 
severe problem of under-representation of minorities at the 
Senior Executive Service level.
    I support this legislation because it will do one thing 
that a number of Hispanic employee groups have requested for a 
number of years: it will introduce accountability into the 
process of hiring and promoting candidates for senior positions 
in the Federal Government.
    Let us look at the numbers. I know that we have gone over 
these, but they bear repeating. In the pathway positions for 
SES, the GS-13 to GS-15, Hispanic hiring has dropped by 2.8 
percent. The latest OPM report cites the reduction from 5.8 
percent to 3.2 percent of Latinos in management positions 
entering the SES. The majority of Hispanic hires in the Federal 
work force are concentrated at the GS-1 through GS-8 
categories.
    Now, we received a great deal of information about the 
outreach conducted by agencies in Hispanic and other minority 
communities, and the guidance OPM has provided to help recruit 
for those various positions. Yet, there is very little in the 
way of data that tells us about the effectiveness of those 
outreach efforts.
    The current agency initiative process of moving along 
candidates has failed to produce the results we should be 
seeing. Despite the outreach and Federal requirements, agencies 
just haven't been up to the task of promoting diversity in the 
senior ranks in a way that is convincing. The results of their 
efforts thus far speak volumes to that point.
    Members of our communities can no longer wait for agencies 
to wake up to the fact that they have to consider diversity in 
their succession planning. The bottom line is they have not 
done a good job of this, despite the requirement to do so; 
therefore, something different is in order.
    It is no mystery. The Federal Government will begin to see 
a mass exodus of employees due to retirements in the coming 
decade. This provides an incredible opportunity for OPM to work 
with the agencies to develop the future work force. Agencies, 
by themselves, cannot and will not do it and, frankly, will not 
succeed, at least when it deals with considering diversity in 
that equation; therefore, it is up to OPM to demonstrate 
leadership.
    This legislation puts the responsible of promoting 
diversity with the agency that recruits the candidates for 
public service, the Office of Personnel Management. It will 
require a hands-on approach, genuine engagement, and active 
direction, and not the mere issuance of passive directives to 
do the right thing, which are rarely enforced. It is a first 
step in providing OPM with the tools it will need to affect the 
problem and requiring that once and for all they get engaged. 
However, this will not stop here, for we will tackle the issue 
at the agency level and bring more accountability to the 
process so we develop a work force that actually looks like 
America.
    When Congress passes this legislation, which I believe they 
will, and it becomes law, I know that the Members here today 
and many of my colleagues who support this issue will be 
eagerly looking for results; therefore, expectations are, 
indeed, high for OPM to produce notable and positive outcomes.
    Again, I want to thank Chairman Davis and Senator Akaka and 
members of this subcommittee for allowing me to participate 
today and, of course, for the introduction of this important 
legislation.
    I yield back, Mr. Chairman.
    [The prepared statement of Hon. Charles A. Gonzalez 
follows:]

[GRAPHIC] [TIFF OMITTED] T4913.009

[GRAPHIC] [TIFF OMITTED] T4913.010

[GRAPHIC] [TIFF OMITTED] T4913.011

    Mr. Davis of Illinois. Thank you very much, Representative 
Gonzalez.
    We have been joined and I would yield to Representative 
Clay from Missouri.
    Mr. Clay. Mr. Chairman, in the interest of time I will 
forego an opening statement and wait and anticipate the 
testimony from the five panels.
    Mr. Davis of Illinois. Thank you very much, Representative 
Clay.
    I would yield to Representative Cummings from Maryland.
    Mr. Cummings. Mr. Chairman, I first of all thank you for 
calling the hearing. Considering the fact that we have Members 
that have to get home, I will submit a written statement. Thank 
you very much.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T4913.012

[GRAPHIC] [TIFF OMITTED] T4913.013

    Mr. Davis of Illinois. Thank you, Representative Cummings.
    We will now go to our first panel. Let me introduce the 
panel.
    Ms. Nancy Kichak is the Associate Director of the Strategic 
Human Resources Policy Division at the Office of Personnel 
Management. She leads the design, development, and 
implementation of innovative, flexible, merit-based human 
resource policies.
    We welcome you, Ms. Kichak.
    Ms. Susan LaChance is the vice president of employee 
development and diversity at the U.S. Postal Service. Ms. 
LaChance reports to the chief human resources officer and 
executive vice president and is responsible for employee and 
leadership development, succession planning, equal employment 
opportunity, and diversity initiatives.
    Ladies, as you know, it is procedure of our committee to 
swear in witnesses. If you would, stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Ms. Kichak, thank you so much. We will begin with you.

STATEMENTS OF NANCY KICHAK, ASSOCIATE DIRECTOR, STRATEGIC HUMAN 
RESOURCES POLICY DIVISION, OFFICE OF PERSONNEL MANAGEMENT; AND 
  SUSAN LACHANCE, VICE PRESIDENT OF EMPLOYEE DEVELOPMENT AND 
                 DIVERSITY, U.S. POSTAL SERVICE

                   STATEMENT OF NANCY KICHAK

    Ms. Kichak. Thank you for the invitation to discuss our 
efforts to create a diverse Senior Executive Service and 
improve the overall diversity of the Federal work force.
    I also welcome the opportunity to review the Senior 
Executive Service Diversity Assurance Act with you and update 
you on our efforts to build the most effective Federal civilian 
work force possible.
    We have long recognized that reaching the broadest possible 
pool of applicants for Federal jobs is essential to achieve the 
goal of having an effective civilian work force.
    Our efforts in this regard are conducted within the 
framework of merit system principles. We must ensure that all 
Americans have equal access to Federal employment opportunities 
at all levels of the work force, and that their knowledge, 
skills, and abilities are evaluated fairly.
    The Office of Personnel Management promotes Federal 
employment expansively, including in areas where the potential 
applicant pool is very diverse. One of the techniques we use is 
conducting job fairs and Federal career days at colleges and 
universities, including community colleges, that are likely to 
help us establish a pipeline of diverse and highly qualified 
individuals.
    Our efforts to build the most effective core of senior 
executives depend, in part, on ensuring an effective pipeline 
into the Senior Executive Service. Many of our efforts are 
aimed at supporting agencies' development of future leaders 
through leadership training and succession training programs. 
Federal agencys often include SES candidate development 
programs in the leadership succession strategies they are 
required to implement. Data clearly show these programs are 
proving to be an excellent vehicle for minority entry into the 
SES. Candidates placed into the SES from these programs 
represent higher percentages of both minorities and women than 
are in the SES today.
    OPM reports to Congress annually on minority representation 
in the Federal Government in relation to the overall civilian 
labor force. Our most recent report was submitted to the 
Congress and to your subcommittee in January. The report shows 
that the Federal Government continues to compare favorably to 
the civilian labor force in employing minorities, with the 
exception of Hispanics. The Federal Government also employs a 
slightly lower percentage of women than the non-Federal sector.
    The proposed bills, H.R. 3774 and S. 2148, are designed to 
enhance diversity and make other improvements within the SES. I 
appreciate the attention and commitment you have devoted to 
this issue; however, although the administration has not yet 
taken an official position on the legislation, I want to share 
with you some initial concerns.
    First, these bills would establish a new office within OPM 
which would assume all functions relating to the Senior 
Executive Service. Today there are several offices within OPM 
supporting the SES. We believe the current structure allows the 
agency to bring a higher level of expertise to issues that 
arise, and thus serves the SES community well. Also, the 
proposed separate office would have substantial cost 
implications.
    In addition, the bills would create new entities called SES 
evaluation panels that would be inserted into each agency 
between the recommending official and the executive resources 
boards. Their task would be to review the qualifications of 
each candidate for career SES appointments and to certify the 
names of candidates the panel believes to be best qualified.
    Each SES evaluation panel would have three members, at 
least one of whom would have to be a woman, and one of them 
would have to be a member of a racial or ethnic minority.
    The Department of Justice has advised that these race- and 
gender-based requirements are very likely unconstitutional 
under governing and equal protection precedents. I assure you 
that OPM shares your goal of a Federal work force that is 
effective in large part because it draws on the strengths of a 
broad and diverse applicant pool. This will continue to be our 
goal with respect to developing and recruiting senior 
executives, as well as the rest of the Federal civilian work 
force.
    I would be happy to answer any questions.
    [The prepared statement of Ms. Kichak follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.014
    
    [GRAPHIC] [TIFF OMITTED] T4913.015
    
    [GRAPHIC] [TIFF OMITTED] T4913.016
    
    [GRAPHIC] [TIFF OMITTED] T4913.017
    
    Mr. Davis of Illinois. Thank you very much, Ms. Kichak.
    Ms. LaChance.

                  STATEMENT OF SUSAN LACHANCE

    Ms. LaChance. Good afternoon, Chairman Davis and members of 
the subcommittees. Thank you for the opportunity to highlight 
our efforts to develop and recruit a diverse talent pipeline 
ready to accept the challenges of leadership to tomorrow.
    Our recruitment and development efforts have been extremely 
successful, resulting in many prestigious awards and other 
recognition for the Postal Service. We are the second-largest 
employer in the Nation, with almost 700,000 employees. Key to 
the Postal Service's business objectives is the development of 
talented individuals who are prepared to assume leadership 
positions quickly and successfully. The Postal Service 
recognizes the business imperatives of creating a pool of 
talented employees with diverse backgrounds, perspectives, and 
experiences. Employees are developed throughout their careers 
to take on new roles, new assignments, and new challenges.
    We have created a number of processes and programs that 
assess and identify high-potential employees. We train, 
develop, and ultimately foster their career advancement. Our 
developmental programs include those designed to prepare 
employees to become initial level supervisors, mid-level 
managers, and executives. The Postal Service is identifying 
tomorrow's leaders today.
    Succession planning is a systematic process to ensure that 
our organization has a steady, reliable pool of talented 
individuals who will be ready and able to meet the Postal 
Service's future leadership needs. The Postal Service's 
corporate succession planning offers a structured, corporate-
wide, and transparent process for identifying those employees 
with the potential to become executives in our organization.
    The self-nomination process puts employees in control of 
their careers by allowing them to express their interest in 
career advancement and leadership roles. Our multi-tiered 
review process and approval process ensures objective and fair 
treatment of all applications.
    Finally, corporate succession planning allows ongoing 
development for program participants. We are proud to reflect 
the diversity of America. Over 38 percent of our total work 
force is minority, and almost 40 percent is female. Minority 
and female representation continues to be strong in our 
management, executive, and officer ranks. In 2007, 32 percent 
of our managers were female, while 30 percent while minorities.
    The number of employees occupying executive positions is 
fairly small, as compared to our entire work force. These 
individuals are responsible for operating our plants, 
districts, and headquarters functions. In 2007, there were 748 
executives, and of these, 26 percent were minorities while 
nearly 29 percent were female.
    We understand that developing our talented employees does 
not guarantee us a viable future in our organization. We 
recruit talented individuals from outside the Postal Service 
who have knowledge and expertise that may not be available in-
house. The Postal Service requires leaders with a broad range 
of knowledge and experiences, excellent business acumen, and an 
understanding of the market drivers that influence our 
business.
    Last year, the Postal Service created an office dedicated 
to recruiting the best and the brightest. We recruit talented 
individuals at colleges and universities through professional 
organizations and at career fairs. The Postal Service 
participates on panels, sponsors events and conferences 
targeting women and minorities, and promotes the Postal Service 
as an employer of choice.
    In addition, we are leveraging technology to reach new 
generations interested in postal careers. Our job postings 
appear on a variety of specialized Web sites. In the increasing 
competition for talent, we must continue to attract and retain 
the right people. We believe that our new recruitment office 
and our diversity professionals' continuous community outreach 
will succeed in attracting talent and diverse individuals with 
the skills and expertise we need for ongoing business success.
    In conclusion, the Postal Service has a long and proud 
history of employing a diverse work force and is committed to 
providing employees with the information, training, and 
development that they need to do their jobs today and tomorrow.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Ms. LaChance follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.018
    
    [GRAPHIC] [TIFF OMITTED] T4913.019
    
    [GRAPHIC] [TIFF OMITTED] T4913.020
    
    [GRAPHIC] [TIFF OMITTED] T4913.021
    
    [GRAPHIC] [TIFF OMITTED] T4913.022
    
    [GRAPHIC] [TIFF OMITTED] T4913.023
    
    [GRAPHIC] [TIFF OMITTED] T4913.024
    
    [GRAPHIC] [TIFF OMITTED] T4913.025
    
    [GRAPHIC] [TIFF OMITTED] T4913.026
    
    [GRAPHIC] [TIFF OMITTED] T4913.027
    
    Mr. Davis of Illinois. Thank you very much. I thank both of 
you for your testimony.
    Let me begin with our questioning.
    Ms. Kichak, you indicated that the Justice Department has 
indicated that there might be some difficulty with the 
requirement of panels, which is included in our legislation----
    Ms. Kichak. Right.
    Mr. Davis of Illinois [continuing]. That might have 
Constitutional issues and pose problems. You also indicated OPM 
had not taken a position on the legislation, itself.
    Ms. Kichak. Yes.
    Mr. Davis of Illinois. Let me ask, does OPM have a position 
relative to why it is so difficult to reach a level of some 
semblance of parity within the ranks of the SES?
    Ms. Kichak. Well, our data does show that the situation, 
the minority representation in the SES is improving, although 
not to the level that minority representation exists today in 
the rest of the Federal Government.
    We believe that the best way to bring people into the SES 
is to train them and develop them and bring them along, and if 
you look at the pipeline of people currently in the Federal 
Government in the 13 to 15 level and in the senior pay level, 
No. 1, it is definitely increasing for both minorities and 
women; No. 2, it is substantially higher than the minority and 
women representation in the SES. So we contend that, as new 
members come into the SES, that the demographic profile of the 
SES will change.
    It does take time. We only had about 300 new hires, and not 
new hires to the Federal Government but people moving into the 
SES in 2007, about 330, I think it is. So out of a 7,000 person 
service, when you only bring in about 5 percent a year it 
definitely just takes time for the numbers to change.
    Mr. Davis of Illinois. And so the time that it takes, the 
most recent study that I looked at suggested that if we 
continue at the rate we are going, that we would be into the 
next 25, 30 years and still will not have seen any significant 
movement or any significant progress.
    Do you have any ideas? Well, let me just ask this: what is 
the status of the training and development program?
    Ms. Kichak. Agencies run their own Federal career 
development programs. Again, we have been very successful when 
we look at those at the agency level in recruiting people into 
the SES. The Federal CDP program that OPM was running, right 
now we are re-evaluating and reviewing what is going on in that 
program. We have had some difficulties in its operation, and we 
are reviewing that. We have told the candidates and the 
agencies that we are currently on hold while we look to get 
that back, and we will be restarting it shortly.
    Mr. Davis of Illinois. So it is actually on hold right now?
    Ms. Kichak. Well, we have to review certain things that are 
going on that are not as we would like them to be. We want a 
very high-quality process in that program.
    Mr. Davis of Illinois. Well thank you.
    Let me just ask you, Ms. LaChance, according to Postal 
Service data in GAO's testimony, the representation of African 
American men among postal managers has declined in recent 
years, while overall representation of women and minorities has 
increased at a slow rate. For example, the percent of minority 
executives increased less than 1 percentage point per year, and 
the representation of female executives has not increased much 
faster. What actions has the Postal Service taken to enhance 
the diversity of executives? I know you talked about the 
recruitment, job fairs and visiting colleges and universities 
and bringing in people. Specifically as it relates to the 
recruitment and development of executives, what is the Postal 
Service doing?
    Ms. LaChance. In terms of looking at what I describe as the 
feeder pool of individuals who will move into executive ranks, 
we recognize that we need a two-pronged structured approach to 
that. As you mentioned, recruitment is one of those areas; 
however, the second area is to really look at the feeder pool 
and make sure that we have processes in place that are open for 
individuals to self-nominate and have an opportunity for 
development.
    In the mid-level ranks, or our managerial ranks, we have 
put in place what we call an EAS leadership development 
program.
    We also have used programs such as management intern 
programs, which allow us to go out and, in fact, recruit 
broadly in America for additional applicants to come in to the 
organization at a level that is in that mid-level manager area.
    Mr. Davis of Illinois. Thank you very much. Thank you both.
    We will go to Ms. Norton.
    Ms. Norton. I guess it is Ms. Kichak I have to ask whether 
or not you are familiar with this decision or, for that matter, 
the Justice Department is familiar with Phillips v. General 
Services Administration 917 Fed. 2nd 1297 from the Federal 
Circuit in 1990. Are you familiar with that decision?
    Ms. Kichak. No, I am not.
    Ms. Norton. Well, it seems to imply that the Federal 
Government or at least the General Services Agency indeed had a 
panel like the one in the chairman's bill that has been taken 
to court and approved by the courts. Could I read you what the 
court said, the Federal Circuit Court, in 1990, ``Requiring 
that each SES evaluation panel shall include at least one woman 
and one member of a racial or ethnic minority group does not 
appear to violate merit system principles or constitute a 
prohibited personnel practice. Merit system principles, which 
appear in Section 2301 of Title V, United States Code, do not 
themselves provide independent causes of action or independent 
bases for jurisdiction and cannot be considered in the absence 
of a violation of a statute, rule, or reg.'' Phillips v. 
General Services Administration.
    It would appear that there is precedent for what the 
chairman and respective chairmen are trying to do in their 
bill, and you are telling me that there is a problem with it?
    Ms. Kichak. First of all, we would defer to the Justice 
Department. That is their advice on that. But I want to 
assure----
    Ms. Norton. Their advice was based on what?
    Ms. Kichak. Their reading of the proposed legislation.
    Ms. Norton. And they then said that it is in violation of 
what? You can't come before this committee and say, well, the 
Justice Department says so, so that is the way it must be. What 
was the view of the Justice Department, and on what was it 
based? I just read you the view of the Federal Circuit Court of 
the United States of America, which is over and above, stands 
above the Justice Department, so I am just trying to find a 
basis for their view.
    Ms. Kichak. And I think the Justice Department is going to 
have to answer that question.
    Ms. Norton. I think what you are going to have to do is, 
within 30 days, have the basis for your coming before this 
committee to testify--the Justice Department is not here--
submit to the Chair the legal basis for your view. You are now 
representing this as your view. You come to testify. I 
understand OPM hasn't taken a view, but you have given us a 
view that you consider apparently even more important than the 
OPM view, and that is that the Justice Department says that 
there is a violation of something, and within 30 days would 
you, the Justice Department, or somebody--show the Justice 
Department this. You have this cite.
    Ms. Kichak. OK.
    Ms. Norton. And ask the Justice Department how they 
reconcile their view that there is a violation here with the 
view of the Federal Circuit opinion in Phillips v. General 
Services Administration, 1990, which appear to condone 
precisely what this bill says.
    Ms. Kichak. We do encourage the quality review boards or 
the review boards that review the SES selections to be diverse, 
to welcome members that are female, minority. It is just that 
we don't mandate that.
    Ms. Norton. I understand that. I have given you a cite that 
said precisely what the chairman said.
    Ms. Kichak. Yes. Thank you. We will do that. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.028
    
    Ms. Norton. I want to go to Ms. LaChance and the Postal 
Service.
    Ms. LaChance, you have something here that is quite 
unusual. Largely because of the absence of opportunities for 
African American, Hispanic men and women elsewhere, you have a 
very largely minority work force. The GAO figures are stunning 
in that regard.
    I would like to ask you about figures that appear to go 
down--these figures are reported in the GAO report--looking at 
executives. Looking at September 1999--I think these are 
percentages--looking at executives at large--that is a very 
broad title, so I don't know what kinds of executives they are 
talking about--but they show a percentage. Well, let's look at 
2004, actually, because from 1999 to 2004 there was a slight 
increase, but if you look at 2004 and 2007 you see, even given 
the nature of your work force, a reduction from 9.8 percent to 
8.7 percent of African American men, and a reduction of African 
American women from 7.0 percent to 6.3 percent. Among Hispanic 
men, there is a small increase, for which I congratulate you, 
from 4.9 to 5.4, but among Hispanic women in these categories 
it goes from 1.5 percent to 1.8, tiny increases.
    The decreases in the men are perplexing, and the women who 
are African American are perplexing. Could you explain them, 
please?
    Ms. LaChance. There are certainly many influences that do 
come about when you look at the statistics. We have, as you 
stated, Delegate Norton, we have enjoyed a good minority 
population, and, in fact, we have had and continue to have a 
large African American population, relatively large in 
comparison with the Federal Government, in our executives as 
well as in our supervisory managerial ranks.
    We have seen, as the population has decreased overall for 
us, we have seen retirements in our men, in general, and we 
have seen like decreases in White men, as well as African 
American men. There has only been a slight increase in our 
Hispanic population.
    Those areas are areas that we are working very closely with 
our internal employee affinity groups with, because we 
recognize that some individuals are not putting themselves out 
there to actually make application and self-nominate to our 
programs, so we are working very closely with our affinity 
groups, encouraging individuals to self-nominate, giving them 
the courage to make application and see that there are 
opportunities. It is an ongoing effort that we have to make.
    Ms. Norton. Do you support the panel notion in the 
chairman's bill with a woman and a minority on the panels?
    Ms. LaChance. In terms of the bill, I think that we have 
already achieved a lot of what the legislation has called for. 
In fact, with our succession planning process and our feeder 
pools, we are seeing a good minority population. We have 
offices that----
    Ms. Norton. I just quoted you some statistics that showed 
decrease in both Black men and Black women, so now you are 
telling me the opposite. I am asking you, in light of those 
decreases, do you support the chairman's notion, at least 
temporarily, of having panels that would have a minority and a 
woman on them?
    Ms. LaChance. We currently do have executive resource 
boards that are very diverse that look at this. It is not 
necessarily the same as what the SES process is, because our 
process is----
    Ms. Norton. You already have this, you are saying?
    Ms. LaChance. We have that process. We have review 
committees that look at this, but our process is more about 
development, not selection.
    Ms. Norton. When it comes to selection, do you have a 
process like the one in the chairman's bill?
    Ms. LaChance. No, we do not.
    Ms. Norton. Do you support or oppose a process like the one 
in the chairman's bill?
    Ms. LaChance. Again, I believe that we already have the 
results the legislation calls for. To put a process in place--
--
    Ms. Norton. Even though I have quoted to you statistics 
that show over 3 years' time significant reduction in Black 
male and Black female executive appointments?
    Ms. LaChance. Again, let me just kind of go back. Our 
process is not the same. Our process is very different. We do 
not post----
    Ms. Norton. I am looking at the GAO report. I am not 
looking at your process. I am looking at the results. One thing 
we should not expect in a work force with such a large 
percentage of Black men and women is the numbers in that upper 
category to decrease, and I am asking you whether, in light of 
that decrease, you think something like what the chairman's 
bill proposes would at least temporarily be helpful.
    Ms. LaChance. I do not believe that the process that has 
been proposed by the chairman would be helpful to the Postal 
Service.
    Although there has been a slight decrease in the 
populations that you are citing, if you do go back to the 1999 
data you will see that there has been a good decrease in the 
GAO report. Further, I think, given the fact that----
    Ms. Norton. Yes, there were increases between 1999 and 
2004, not much for Black men, 9.0 to 9.8, but at least it was 
an increase, and African American women, 5.3 to 7.0. Then I 
look at the years between 2004 and 2007 and I see rather 
significant decreases. That is what leads me to ask the 
question I have just asked.
    Ms. LaChance. Again, I do not believe that having the 
legislation as proposed would be of aid to the Postal Service 
because our process is really not about filling jobs and 
promotions, but rather about developing individuals for 
leadership.
    What we have looked toward is identifying people and giving 
them opportunities. If we look toward only----
    Ms. Norton. Rather than giving them jobs.
    Mr. Chairman, I think you said you are not for it. Giving 
them opportunities which result in decreases does not show the 
effectiveness of what you are doing, Ms. LaChance. Thank you 
very much. I will go on to the next person.
    Mr. Davis of Illinois. Thank you very much, Ms. Norton. We 
will go to Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Let me start with Ms. Kichak. You voiced two concerns about 
the proposed legislation, H.R. 3774 and the Senate version. One 
of the concerns is that it would create a new office and you 
believe in the current structure that is there. You also voiced 
a concern that I thought was quite interesting and have never 
heard from any Federal agency, that you had a cost concern 
about the cost of creating this new department. I found that 
quite interesting. I have never heard any agency come up here 
and say they did not want to create something new because of 
cost. I just don't hear it. It is not a part of Federal 
agencies' culture. I don't hear it. But I heard it today.
    Your second set of concerns was about the Constitutionality 
that was pointed out to you.
    Change is always difficult, and it seems to me that the 
culture of the SES selection process should be what changes. 
When you really think about it, it is the culture. You think 
that the levels of diversity in the SES are improving, but the 
will must be there to make these improvements. The will must be 
there to make the changes. It must be there to actually move 
people up the ladder. Is the will there to do that in OPM?
    Ms. Kichak. The will is definitely there.
    The first thing is it is not a question of being afraid of 
change. We did have one SES office prior to our reorganization 
in 2003 which was not that long ago, and so those of us with 
long careers at OPM remember that. I really believe the service 
and the quality of service the SES community is better today 
because, instead of having a small office devoted to one topic, 
we bring together experts in various aspects of personnel 
management, such as how you recruit, how you evaluate, how you 
service, how you rank applications, and things like that.
    So working with the SES, there are more people working on 
it today, although not full time, than there were when we had 
an individual office, so it is really, No. 1, an issue of 
quality.
    No. 2, OPM always does care about cost. We are a small 
agency and we want to make sure we use our dollars wisely. But 
we continue to support diversity in the SES. I mean, we just 
issued new Executive Corps qualifications that you use to 
evaluate applicants, and it requires a leadership element that 
evaluates whether folks have been effective leaders in 
encouraging diversity. So our interest is there.
    We have a human capital score card. That is not strictly 
SES. That is for measuring the management of human capital, and 
there is a managing diversity element there. We require 
reviewing diversity and succession plans. So we are very much 
committed.
    Mr. Clay. Commitment is one thing, but, I mean, I heard the 
chairman say that it may take up to 25 years to get to parity. 
To be committed and for you to come here and say you are 
committed is fine, but the numbers don't bear that out. They 
really don't. And you are not demonstrating national diversity 
by your numbers, so in actuality you don't have a diverse SES. 
You don't have a diverse work force that allows people to climb 
the career ladder in SES. You aren't selecting numbers. Your 
numbers just aren't there.
    I am from Missouri, and we have a motto in that State. You 
have to show me. You have not shown me that you are about 
fairness and that you are about equity, that you are about 
upward mobility of all of your employees. You don't look 
nationally diverse.
    Ms. Kichak. We can show you numbers that are improving, but 
not numbers that have achieved the levels of representation in 
the work force in general. You are correct.
    Mr. Clay. And also I find it kind of different, too, that 
OPM has come here today to take an adversarial position against 
this legislation. My suggestion to you and OPM is that you all 
figure this out how to work with both chairmen of these two 
committees and to actually come up with a product that gets us 
the result. Don't come here being adversarial, because you are.
    Ms. Kichak. We would very much like to work with the 
committees to come up with something that would improve the 
diversity of the senior executive work force.
    Mr. Clay. And it doesn't help when you come up here and 
give us a line from the Justice Department that is really not 
relevant.
    Let me go to Ms. LaChance before my time runs out.
    Why is there a disconnect in the number of rank and file 
employees versus the executive level positions, the same point 
that Ms. Norton was bringing up? What is the disconnect here?
    Ms. LaChance. As I understand your question, in terms of 
the disconnect between the representation in the rank and file 
versus the representation in the managerial ranks?
    Mr. Clay. The 54 or 55 percent of African American male and 
females in the Postal Service compared to a much drastically 
less number of executives in decisionmaking positions in the 
Postal Service.
    Ms. LaChance. In terms of diversity at the managerial 
ranks, one of the things that we see in the managerial ranks, 
in general, is that those individuals that are sitting in those 
positions actually came into the organization some time ago 
when the diversity of America was different.
    As we have had over the years, as we influence and start to 
do hiring, we see more and more of the ranks at the initial 
level where we do more hiring from external coming in and 
looking more like America as it does today.
    As a result, without intervention or having programs like 
management interns, which we have moved toward, or hiring 
initial level supervisors, opening up our opportunities to what 
America looks like today, our managerial ranks looks like the 
population as it was perhaps 10, 15 years ago. So it takes an 
extra effort for us to continue to encourage our own work 
force, reach out, and to retain that work force.
    Mr. Clay. And you know your line of reasoning here is 
similar to Ms. Kichak in that you seem to have some challenges 
about what you call leadership, but it seems to me that you 
have individuals making judgment calls on applicants, which may 
be influenced by other factors. So it may be something in your 
own system that you may want to evaluate and change.
    Mr. Chairman, I yield back.
    Mr. Davis of Illinois. Thank you very much, Mr. Clay.
    We will go to Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Ms. Kichak, first of all I want you to understand that 
Director Springer has met with members of the Hispanic Caucus 
at least twice, has addressed our concerns, and I think has 
shown a very genuine interest in some of the worries that we 
have, so I am going to start off with that basic premise and 
observation.
    But I think what you see here is being expressed a certain 
frustration, trying to get to the bottom of the problem and 
seeing that the approach that you take and the direction that 
you give the agencies and the departments is effective, and 
there is some serious question about that.
    I am going to refer to the Post article that came out today 
that I am sure you read, and Congressman Jose Serrano's 
questioning of Director Springer yesterday, and I am going to 
read from it. ``Jose Serrano, Democrat from New York who is 
chairman of the House Appropriations Subcommittee and is 
interested in promoting diversity, cited a 2007 survey that the 
OPM had conducted of its own employees. About 25 percent of the 
OPM employees chose to neither agree nor disagree on whether 
OPM policies and programs to promote diversity in the agency, 
and an additional 12 percent selected do not know, as their 
response. An additional 9.4 percent disagreed that the OPM's 
efforts promote diversity in the agency.'' That was what was 
reported in the paper today.
    So you probably have about half of those within OPM that 
were surveyed that either have a negative opinion or no opinion 
or don't know. Even internally, that would be unacceptable, and 
when you think in terms of what you are doing basically sets 
the course, guides others and such, you have to look at it and 
question internally what you all are doing. That is what gets 
our attention.
    And then if you spread that throughout the agencies and 
departments that are not meeting any of the mandates or goals 
or recommendations set out by Executive orders and such, now 
you have really got us worried. It seems like the frustration 
only grows from year to year because the numbers don't seem to 
be improving.
    Now, I understand that a certain agency or a department may 
have a better record of diversity in hiring at all levels and 
at the senior executive levels, and it is always amazing to see 
which ones are more successful than others. In our discussions 
with Director Springer we were trying to say, Would you 
identify those programs that are more successful, and such.
    One of the recommendations of this legislation--again, this 
is from a memorandum that is prepared by staff for the benefit 
of members of the committee. It says, ``The bill is divided in 
two primary sections. The first section would recreate the 
Senior Executive Resources Office at OPM, which was dissolved a 
number of years ago. According to Senior Executives 
Association--'' and I think they have a representative here--
``During most of the existence of Senior Executive Service 
there exited at OPM a single Office of Executive Resource, 
which was responsible for thinking about and overseeing the 
specialize corps of senior executives and related 
classifications constituting the career leadership of the U.S. 
Government. Ever since the division of this office's 
responsibility a number of years ago, concerns and issues 
relating to the career leadership corps has been parceled out 
among many different and sometimes hard to identify, let alone 
locate, parts of OPM.''
    And your position would be in opposition to that particular 
aspect of this legislation?
    Ms. Kichak. I think we are serving that community better by 
giving them access to all the experts that touch on all facets 
of SES, and my particular office will take any call from that 
organization and make sure it gets to the right place. We are 
committed to serving that population; we just don't think this 
is the way to do it.
    Mr. Gonzalez. I think it has been our experience that we 
like to see things institutionalized within departments, 
agencies, and so on that have certain duties and 
responsibilities that address the issues that are before us. I 
think that is the approach of this piece of legislation. I 
don't speak for the author or anyone at this point, but that 
would just be my understanding. I think we had something that 
was in place truly dedicated to the proposition of looking at, 
of course, senior executive levels and how you promote, what 
you do to retain, and even the outside hires, as you were 
saying, which were minimal when you think in terms of what you 
have to draw from and who you bring in new at those particular 
levels.
    I do wish, and I am going to have to echo some of what my 
colleague, Mr. Lacy, pointed out, I wish that you all were a 
little bit more open minded about that. I understand even 
Congress doesn't like sometimes when people are telling us that 
we have to do some things differently and maybe have something 
within our own Body that may overview certain actions of 
Members, but, nevertheless, sometimes we do have to listen.
    Ms. LaChance, let me ask you, where did you come up with 
this model on how you approach on obviously attracting and 
retaining and promoting within the Postal Service? Who gave you 
all these ideas? Where did you receive your direction?
    Ms. LaChance. Well, one of the things that we do is we 
constantly look at best practices in an industry, and one of 
the best practices in industry is to focus in on development. 
That is really why we are very different than what the rest of 
the Federal Government does. We do not post position by 
position. We post for development, developmental pools, and we 
identify individuals, give them opportunities, give them 
coaching over time, and that is a best practice in private 
industry. In fact, we were cited in 2005 by GAO as having a 
best practice with our programs, as well.
    While we always can improve and we continue to strive to do 
that, looking at our programs and processes, making sure that 
there are no barriers to any one individual or group in any of 
our personnel practices is something that we, as well as the 
Federal Government, do and report to EEOC.
    So I think it is a combination of the two pieces: looking 
to best practice and also monitoring on an ongoing basis.
    Mr. Davis of Illinois. Thank you very much. Let me thank 
both of you. We appreciate your testimony and appreciate your 
being with us. You are excused.
    Ms. LaChance. Thank you.
    Ms. Kichak. Thank you.
    Mr. Davis of Illinois. We will go to our second panel. 
While they are being seated, I will introduce them.
    Panel two is Mr. George H. Stalcup, the Director of 
Strategic Issues at the Government Accountability Office, GAO. 
He oversees a range of management and human capital issues. Mr. 
Stalcup also oversees GAO's high-risk program and issuance of 
GAO's biennial update to its high-risk list.
    Ms. Katherine Siggerud is the Director in the Physical 
Infrastructure Issues Team at GAO. She has directed GAO's work 
on postal issues for several years, including recent reports on 
delivery standards and performance processing, network 
realignment, contracting policies, semi-postal stamps, and 
biological threats.
    Let me thank you both. As is the tradition of this 
committee, we always swear in witnesses.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Let me welcome you both and thank you for being here.
    Mr. Stalcup, we will begin with you.

 STATEMENTS OF GEORGE H. STALCUP, DIRECTOR, STRATEGIC ISSUES, 
   GOVERNMENT ACCOUNTABILITY OFFICE; AND KATHERINE SIGGERUD, 
 DIRECTOR, PHYSICAL INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

                 STATEMENT OF GEORGE M. STALCUP

    Mr. Stalcup. Chairman Davis, Congresswoman Norton, 
Congressman Gonzalez, thank you for the opportunity to 
participate in this hearing on diversity in the executive 
ranks. I will first discuss the SES, and then Ms. Siggerud will 
talk about the Postal Career Executive Service.
    Our Government continues to face new and more complex 
challenges associated with long-term fiscal constraints, 
changing demographics, and other factors. Senior leadership in 
agencies across Government, including the Postal Service, is 
essential to providing accountable, committed, consistent, and 
sustained attention to human capital and related organizational 
transformational issues. A diverse executive corps can be an 
organizational strength by bringing in a wider variety of 
perspectives and approaches to bear on policy development and 
implementation, strategic planning, problem solving, and 
decisionmaking.
    In 2003 we issued a report that looked at diversity in the 
SES as of October 2000. We estimated by race, ethnicity, and 
gender the number who would leave Government service by October 
2007 and projected what the profile of the SES would be at the 
end of 2007 if appointment trends did not change. We made 
similar estimates for the GS-15 and GS-14 levels, which are 
viewed as the primary developmental pools for the SES.
    In testimony last year, we provided data on representation 
at senior executive levels as of the end of fiscal year 2006. 
Our statement today presents the baseline data from our October 
2000 that we used in our previous study and updated 
representation data as of the end of fiscal year 2007 for both 
the SES and the developmental pool.
    As requested, our full statement also compares the fiscal 
year 2007 data to the projections we made in our 2003 study.
    For both the SES and the developmental pool we included 
data both Government-wide and for each of the 24 CFO Act 
agencies. One of the charts to my right, your left, shows a 
breakdown of representation in the SES as of 2000 and as of 
2007, as well as the changes over that span. The other chart 
presents similar data for the SES developmental pool.
    Our 2003 report projected some increases in representation 
in most categories of SES. You can see that fiscal year 2007 
data show that increases did take place overall among both 
women and minorities, as well as in most categories, although 
the amount of those increases varied.
    The only decrease in representation among minorities 
occurred in African American men, whose representation declined 
from 5.5 percent in the year 2000 to 5.0 percent in 2007.
    Our 2003 report also projected some increases in 
representation among both minorities and women in the SES 
developmental pool. The 2007 data show that increases generally 
did take place, but again the magnitude of those increases 
varied.
    It is important for me to note that we did not analyze the 
factors that contributed to these changes, and therefore care 
must be taken when comparing actual changes in demographic data 
to the projections we made. Specifically, we have not 
determined whether or not the estimated retirement and 
appointment trends used in our projections continued.
    Now, while we have not done that analysis, agencies are 
required to analyze their work forces and, where representation 
levels for covered groups are lower than the civilian labor 
force, take steps to address those differences. Agencies must 
also maintain effective equal employment opportunity programs 
and develop strategies to mitigate or eliminate any barriers to 
participation.
    It is also important for agencies to consider retirement 
eligibility and actual retirement rates of the SES.
    In 2006, OPM reported that approximately 60 percent of the 
executive branch's white collar employees and 90 percent of its 
executives would be eligible for retirement over the next 10 
years. Significant retirements could affect the leadership 
continuity, institutional knowledge, and expertise among the 
SES corps. This has important implications for Government 
management and emphasizes the need for good succession planning 
for this leadership group.
    [The prepared statement of Mr. Stalcup follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.029
    
    [GRAPHIC] [TIFF OMITTED] T4913.030
    
    [GRAPHIC] [TIFF OMITTED] T4913.031
    
    [GRAPHIC] [TIFF OMITTED] T4913.032
    
    [GRAPHIC] [TIFF OMITTED] T4913.033
    
    [GRAPHIC] [TIFF OMITTED] T4913.034
    
    [GRAPHIC] [TIFF OMITTED] T4913.035
    
    [GRAPHIC] [TIFF OMITTED] T4913.036
    
    [GRAPHIC] [TIFF OMITTED] T4913.037
    
    [GRAPHIC] [TIFF OMITTED] T4913.038
    
    [GRAPHIC] [TIFF OMITTED] T4913.039
    
    [GRAPHIC] [TIFF OMITTED] T4913.040
    
    [GRAPHIC] [TIFF OMITTED] T4913.041
    
    [GRAPHIC] [TIFF OMITTED] T4913.042
    
    [GRAPHIC] [TIFF OMITTED] T4913.043
    
    [GRAPHIC] [TIFF OMITTED] T4913.044
    
    [GRAPHIC] [TIFF OMITTED] T4913.045
    
    [GRAPHIC] [TIFF OMITTED] T4913.046
    
    [GRAPHIC] [TIFF OMITTED] T4913.047
    
    [GRAPHIC] [TIFF OMITTED] T4913.048
    
    [GRAPHIC] [TIFF OMITTED] T4913.049
    
    [GRAPHIC] [TIFF OMITTED] T4913.050
    
    [GRAPHIC] [TIFF OMITTED] T4913.051
    
    [GRAPHIC] [TIFF OMITTED] T4913.052
    
    [GRAPHIC] [TIFF OMITTED] T4913.053
    
    [GRAPHIC] [TIFF OMITTED] T4913.054
    
    [GRAPHIC] [TIFF OMITTED] T4913.055
    
    [GRAPHIC] [TIFF OMITTED] T4913.056
    
    [GRAPHIC] [TIFF OMITTED] T4913.057
    
    [GRAPHIC] [TIFF OMITTED] T4913.058
    
    [GRAPHIC] [TIFF OMITTED] T4913.059
    
    [GRAPHIC] [TIFF OMITTED] T4913.060
    
    [GRAPHIC] [TIFF OMITTED] T4913.061
    
    [GRAPHIC] [TIFF OMITTED] T4913.062
    
    [GRAPHIC] [TIFF OMITTED] T4913.063
    
    [GRAPHIC] [TIFF OMITTED] T4913.064
    
    [GRAPHIC] [TIFF OMITTED] T4913.065
    
    [GRAPHIC] [TIFF OMITTED] T4913.066
    
    [GRAPHIC] [TIFF OMITTED] T4913.067
    
    [GRAPHIC] [TIFF OMITTED] T4913.068
    
    [GRAPHIC] [TIFF OMITTED] T4913.069
    
    [GRAPHIC] [TIFF OMITTED] T4913.070
    
    [GRAPHIC] [TIFF OMITTED] T4913.071
    
    [GRAPHIC] [TIFF OMITTED] T4913.072
    
    [GRAPHIC] [TIFF OMITTED] T4913.073
    
    [GRAPHIC] [TIFF OMITTED] T4913.074
    
    [GRAPHIC] [TIFF OMITTED] T4913.075
    
    [GRAPHIC] [TIFF OMITTED] T4913.076
    
    [GRAPHIC] [TIFF OMITTED] T4913.077
    
    [GRAPHIC] [TIFF OMITTED] T4913.078
    
    [GRAPHIC] [TIFF OMITTED] T4913.079
    
    [GRAPHIC] [TIFF OMITTED] T4913.080
    
    [GRAPHIC] [TIFF OMITTED] T4913.081
    
    Mr. Davis of Illinois. Thank you very much.
    Ms. Siggerud.

                STATEMENT OF KATHERINE SIGGERUD

    Ms. Siggerud. Chairman Davis, Ms. Norton, Mr. Gonzalez, I 
would like to echo my colleague's thanks for inviting GAO to be 
a part of this hearing.
    The Postal Service faces similar challenges as the 
executive branch. The Service expects nearly half of its 
executives to retire within the next 5 years, which underscores 
the need for effective succession planning, but also presents 
opportunities for the Postal Service to alter the composition 
of its executive ranks.
    Today I will provide similar information regarding the 
Postal Service to the overview Mr. Stalcup provided with regard 
to the SES. I will discuss first representation information for 
the Postal Career Executive Service [PCES]; second, 
representation from the ranks of postal employees who can be 
promoted into the PCES; and, third, how the Postal Service 
selects employees for executive promotion.
    Turning to the PCES, our chart on my right does show 
increases in the percent of women and minorities from 1999 
through 2007 for the Postal Service. However, the trends did 
vary in this group, which currently includes about 750 
executives. For example, during the past 8 years there was a 
decrease in representation of African American men, while 
numbers for other minority men stayed largely steady. For 
women, percentages stayed steady or increased.
    The story is similar for employees in the ranks of the 
Executive and Administrative Schedule [EAS]. They could be 
selected for PCES positions. As shown in our chart, from 1999 
through 2007, percentages increased for minority men, minority 
women, and women overall, but there was a decrease in 
representation of African American men.
    We have not analyzed factors that contributed to changes in 
the representation in the PCES or EAS. The Postal Service, like 
executive branch agencies, has responsibility for analyzing its 
work force, identifying barriers, and developing strategies to 
counteract them.
    Mr. Chairman, as the previous panel discussed, the process 
for selecting new PCES employees differs from that used to 
select SES members. Because the Postal Service has statutory 
authority to establish procedures for its appointments and 
promotions, it does not fall under the jurisdiction of the OPM 
process my colleague described. Instead, the Postal Service 
promotes employees to the PCES when there is a vacancy that 
needs to be filled. There are no requirements to advertise PCES 
vacancies. Selecting officials are not required to interview 
candidates for such vacancies, and there is no board to certify 
candidates' qualifications.
    However, the Service strongly encourages its executives to 
select PCES promotees from the corporate succession planning 
program. The Postal Service created this program in 2004 for 
the purpose of identifying pools of potential successors for 
PCES positions and for developing these employees. While the 
corporate succession planning program could be viewed as 
similar to SES candidate programs, there are important 
differences.
    There are about 400 corporate succession planning position 
pools which correspond to specific positions in the PCES. 
Members of these pools are selected by committees convened by 
each of 43 postal officers and include at least three 
executives. Once selected, members participate in development 
activities.
    While the SES candidate programs have high rates of 
placement in the SES, in 2007 about a tenth of corporate 
succession planning participants were tapped to be executives.
    In reviewing information about the corporate succession 
planning program, we determined that about 87 percent of 
employees selected for the PCES were, in fact, program 
participants. We reviewed representation for program 
participants for those EAS levels most likely to produce PCES 
promotions. In this group, percentages increased for both women 
and minorities from 2004 through 2007, but the percentage of 
African American men decreased.
    In conclusion, Mr. Chairman, racial, ethnic, and gender 
diversity in the Government's executive ranks is an important 
component of the effective operation of the Government. 
Succession planning provides an opportunity for the Federal 
Government to affect the diversity of the executive corps 
through new appointments.
    We have reported that the agencies in other countries use 
succession planning to achieve a more divers work force, 
maintain leadership capacity, and increase the retention of 
high-potential staff.
    GAO has said that an agency's human capital plan should 
address the demographic trends that the agency faces with its 
work force, especially retirements. Leading organizations go 
beyond a so-called replacement approach that focuses on 
identifying particular individuals as possible successors; 
rather, they focus in broad, integrated succession planning 
that focuses on strengthening both current and future capacity, 
anticipating the need for leaders and other key employees with 
the necessary competencies to successfully meet the challenges 
of the 21st century.
    Mr. Chairman, this concludes our statements, and we are 
certainly happy to answer any questions.
    Mr. Davis of Illinois. Thank you very much, Ms. Siggerud. I 
appreciate both of you for being here and testifying.
    Mr. Stalcup, let me ask, you mentioned the fact that GAO 
did not analyze factors that affected changes in 
representation. Let me ask you, you indicated that the 
agencies, themselves, would have responsibility for doing that. 
Do we know whether or not agencies are actually doing this?
    Mr. Stalcup. Both the EEOC and Office of Personnel 
Management, as you say, Mr. Chairman, do require agencies to 
analyze their work forces, identify where there are disparities 
with the civilian labor force, and work to overcome any 
barriers that they identify. They are to report annually to 
those respective organizations on how well they have done, and 
those organizations, in turn, report to the Congress. So there 
is information out there on what is being done in that regard, 
but with 25 different agencies making it up you have a varying 
situation in each agency.
    So OPM and EEOC are the ones with that important oversight 
role to be working with those agencies and getting those 
numbers where they need to be.
    Mr. Davis of Illinois. And so if we end up requesting from 
OPM and from the Government Accountability Office that we 
receive that information from the agencies, then we could 
expect to be able to get it?
    Mr. Stalcup. Yes. Typically on an issue like that we would 
look for OPM to provide that information and we would then work 
with your team in your office in analyzing those responses.
    Mr. Davis of Illinois. Yes, because I think it is very 
important, especially if we find, as we are finding, that there 
is regression among some population groups, which is difficult 
to, quite frankly, understand, as we consistently suggest that 
we are moving forward. We certainly would be in need of that 
information.
    Let me also ask you, what work has GAO done to take a look 
at retirement expectations of SESers over the next 5 years?
    Mr. Stalcup. We have not updated the study that we did 
going back into 2003, which did that projection based on 2000 
numbers for this year or this recently completed year of 2007.
    Again, it is the responsibility oversight the individual 
agencies under the leadership of both OPM and EEOC to analyze, 
to make those analyses of their work force. It is a very 
important function to know, have a feel for what retirements 
are in play, and to plan and do work force planning 
accordingly, not to do one-for-one replacements, but to figure 
out where you need to move your organization from where it is 
at today and where you need to be in the future and use 
recruitment and hiring and appointments to get there.
    Mr. Davis of Illinois. Based upon your knowledge, would you 
suggest that there will be significant opportunity to really 
change the face of the SES over the next 5 to 10 years, given 
the numbers of people who in all likelihood will be retiring, 
therefore opening up additional opportunity?
    Mr. Stalcup. Well, clearly the numbers that OPM has 
presented are large in terms of people that will become 
eligible for retirement in coming years. The next number that 
is important is how many of them will, in fact, retire. But 
assuming a good portion of them retire, the opportunity will be 
there in terms of replacements and appointments for those folks 
to, in fact, make a change.
    Mr. Davis of Illinois. Ms. Siggerud, let me ask you how 
much change has there been in the representation of women and 
minorities among postal executives in the Executive Service?
    Ms. Siggerud. Mr. Chairman, this is really sort of a mixed 
bag, I would say. When you look at overall representation in 
the PCES over the time period from 1999 through 2007, which is 
the data that we have available to us, we do see increases in 
women of nearly 9 percent. We see increases in minority groups 
of about 4.7 percent, a lower number than for women. But when 
we look at the number of men, and in particular African 
American men, there is a decrease over that time period, and we 
see similar sorts of trends in the groups that could be 
promoted into those positions.
    Mr. Davis of Illinois. Do you have any idea as to why this 
phenomenon is occurring among African American males?
    Ms. Siggerud. Mr. Chairman, as with the executive branch, 
we have not at this point gotten beneath these numbers and 
tried to identify causes and factors. As Mr. Stalcup said, I 
would certainly be very interested in seeing what the Postal 
Service has done in response to OPM and EEOC requirements to do 
this analysis.
    In its report to the Congress that was required in the 
Reform Act looking at diversity among managers and supervisors, 
in general--a little bit different group from what we did--the 
Postal Service did mention significant retirement numbers among 
men, in general, as perhaps being behind this issue.
    Mr. Davis of Illinois. Thank you very much.
    I will go to Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    First let me ask a threshold question to try to understand 
these figures. Has there been a reduction in the number of SES 
employees between 2000 and 2007?
    Mr. Stalcup. I believe the answer is there has been an 
increase.
    Ms. Norton. Altogether?
    Mr. Stalcup. Altogether.
    Ms. Norton. White, Black, whoever is in there. Has there 
been an increase, or has there been stability in the number of 
SES employees between 2000 and 2007?
    Mr. Stalcup. In the year 2000, based on our 2003 report, 
there were 6,110 SESers. In the year 2007 there are 6,555, an 
increase of 445.
    Ms. Norton. All right. I am trying to figure out who have 
taken all of the positions. You might ask where have all the 
White men gone. Well, if you look at your figures, they have 
probably retired, because the White male figures are even 
larger in decreases, or there is even a larger decrease in 
White men than in anyone else. I am talking about SES now. In 
men, period, there is a 5.5 percent decrease. We see that in 
the work force throughout. Men have, for various reasons--some 
of them having to do with pensions and the rest. But if we look 
at White men, there is an even greater reduction.
    Who is getting these positions, Ms. Siggerud or Mr. 
Stalcup, if you have an increase in the SES and we see these 
tiny increases over 7 years--if you look at 7 years, these 
increases are quite unimpressive, 0.6 percent for African 
American women, of course a decrease for African American men, 
0.9 percent for Hispanic men, 0.2 percent for Hispanic women, 
White women do see an increase of 4.2 percent. You talk about 
successive planning. We are told by Mr. Stalcup there is an 
increase in employees. Well, who's getting the jobs?
    Mr. Stalcup. Well, the numbers are in our appendix one of 
the statement we did. The total number of White males at the 
SES level actually did go down from 4,097 to 3,976, a small 
decrease.
    Ms. Norton. Or 6.4 percent. Yes. That is what leads me to 
ask the question. But the numbers of SES employees went up.
    Mr. Stalcup. That is correct.
    Ms. Norton. So not only do you have vacancies that can be 
filled, you got more employees than you had before in 2000, so 
I am trying to figure out who are getting the jobs.
    Mr. Stalcup. And the answer to who got the jobs is in that 
column on the right. I can do the math and I can provide more 
detail to you if you wish.
    Ms. Norton. I don't see the numbers in here, frankly, in 
the math, not when you consider the increases.
    Mr. Stalcup. Page 19 of our statement.
    Ms. Norton. I am looking at the blue chart. I am sorry. I 
am looking at the blue chart at the moment. I wish you would 
break down where have all the jobs gone. You have more SES 
employees. You have men, White men who held the great majority 
of them, reducing in even larger numbers. You see tiny 
increases in all but White women. So I don't see why there 
aren't greater increases, since White males aren't necessarily 
filling the new positions. Or maybe they are. They are leaving, 
but maybe more White men are, in fact, filling the positions.
    Mr. Stalcup. The details on page 19 of our statement, which 
you may not have with you----
    Ms. Norton. I am looking at 19 now.
    Mr. Stalcup. You can see on that first set of data under 
SES that White women went from a number of 1,164 to 1,526, so 
the increase----
    Ms. Norton. Well, that is reflected in this data. That is 
4.2 percent.
    Mr. Stalcup. That is correct.
    Ms. Norton. I don't want to belabor the point. I am looking 
at increases, not large increases but 6,100 to 6,500.
    Mr. Stalcup. Correct.
    Ms. Norton. I am looking at decreases in White males. And 
when you consider the increases overall plus the decrease in 
White males, you would expect, it seems to me, that the White 
women are not taking all these positions. I don't see that.
    Mr. Stalcup. I understand your point. Yes.
    Ms. Norton. And I would like to see you do that math.
    Mr. Stalcup. We will.
    Ms. Norton. I would very much appreciate that.
    Ms. Siggerud, you said, interestingly, that the Postal 
Service doesn't do advertisements, recruits from within. Is 
that what you were testifying?
    Ms. Siggerud. The Postal Service can either promote from 
within, or occasionally will, in fact, hire someone outside.
    Ms. Norton. They don't advertise for positions? Was that 
your testimony?
    Ms. Siggerud. There is a requirement to advertise for 
positions. There may be occasions when the Postal Service does, 
in fact, do advertisement.
    Ms. Norton. I don't know which they do. Do they tend to 
recruit from the ranks?
    Ms. Siggerud. Primarily, yes.
    Ms. Norton. That is good.
    Ms. Siggerud. Yes.
    Ms. Norton. Where you have this large pool of minorities 
and women, you have this ready-made pool of people to recruit 
from. I am trying to discover whether, when they get to these 
SES-type positions, whether they are recruiting--it might be 
quite all right--from laterally, whether they are recruiting up 
the ranks. I am trying to account for the disparity.
    Ms. Siggerud. Yes. The Postal Service does encourage 
recruiting from this corporate succession planning program that 
I mentioned, which are the pools of people that are being 
developed to fill specific disciplines within the executive 
corps of the Postal Service. What we found was that about 87 
percent of the promotions into the PCS came from people who are 
members of the corporate succession planning program. As I 
said, there were occasionally outside hires that may also be 
used to provide a very specialized skill.
    Ms. Norton. Mr. Chairman, I am going to go on, since the 
bell has rung, to the next person, but I think we need to know 
what kinds of positions require lateral, because I think it is 
very good to be in the Postal Service at the ranks and know 
that you may 1 day get to be in the whatever is the SES of the 
Postal Service, and so it would be important to know where are 
the lateral hires and where are the promotions from the 
succession planning, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Ms. Norton.
    Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    It is good to see you again, Mr. Stalcup, and I want to 
extend my thanks for the assistance that GAO provided us at the 
request back in that time of the ranking member of the full 
committee and the ranking member of this subcommittee, Mr. 
Davis, and getting your services to address a very serious 
question that the Hispanic Caucus had regarding Hispanic under-
representation.
    What we learned then was very enlightening. There are many 
different conditions that may, I guess, mitigate why an agency 
or department may not be meeting certain numbers that are out 
there, or they are encouraged to, so that is interesting. I 
guess what I learned is that many times you can tell us the 
what but not necessarily the why's. Today I think again I am 
getting that sense that you can give us the raw numbers, you 
can go in there and you can analyze this and say this is what 
you have in the way of women, African American women, Asian 
American women, Hispanic, and so on, but you can't really tell 
us what might be the best practices or why one agency does 
better than another.
    My experience from the previous assistance that you 
provided us is that in the final analysis it really is going to 
be OPM and, of course, the Equal Employment Opportunity 
Commission [EEOC]. In everything, that is what we end up at the 
end of this whole process.
    I don't know if GAO is ever going to go in there and 
analyze all the different departments and agencies and figure 
out why they have greater success at attracting and retaining a 
more diverse work force. I don't know if that would ever be 
your charge. So if we told you go out there and we want you to 
analyze all the different departments and agencies, not just 
the senior executive levels, but across the board, who does a 
better job and why do they do a better job, would that be a 
legitimate request? Would you be able to ever do anything like 
that?
    Mr. Stalcup. Well, that would be a major undertaking. We 
would obviously talk to you and work through what would be best 
in terms of getting at that.
    As you state, clearly OPM and EEOC have those very 
important leadership roles to do that.
    Let me also say that we have done a body of work not 
directly focused on agency-by-agency and story-by-story, but we 
have done a series of other reports. We have looked at the 
overall framework for EEO in the Government for achieving 
diversity. We have talked about various roles of both the EEOC 
and OPM, what is rooted in law, what is rooted in regulation, 
and presented some things out there, some observations in terms 
of how that works. We have made recommendations based on the 
Hispanic representation work we did for you, which was a very 
important job. But we haven't yet, like you say, gone and 
attempted to develop a story agency-by-agency. Chances are it 
is going to be a different story for every agency, but there 
will be common themes also.
    Mr. Gonzalez. One thing that we were trying to arrive at 
back then with the work that you assisted us with was really 
the accountability or consequences of failing to be aggressive 
and effective in the efforts of any agency and department, and 
that is why we ended up with OPM and EEOC as really probably 
being the entities that you would look for as far as maybe 
exercising some sort of decisionmaking and policy 
implementation that would result in the accountability and 
responsibility of all those agencies and departments that maybe 
aren't doing as good a job as we believe that they should.
    But I know that cause and effect is an important thing 
here, and these numbers I think are really important, but I do 
believe they just provide us with some raw data, unless what is 
attempting to be accomplished by this piece of legislation. If 
we don't move aggressively ourselves and try to 
institutionalize within OPM or an agency or a department some 
sort of, again, either a body or a section that is truly 
dedicated to this proposition of diversity in the work force, I 
am not sure that we will make that kind of progress.
    Again, I just want to commend the chairman of this 
subcommittee for being not just creative, but again assertive, 
and maybe we will get there.
    I would ask the agencies and the departments and the 
administration if they don't like this particular suggestion, 
then what can we do to arrive at better results than where we 
are today.
    I yield back. Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Mr. Gonzalez.
    I want to thank the witnesses for being with us this 
afternoon. We appreciate your testimony and your answers. You 
are excused.
    Mr. Stalcup. Thank you.
    Ms. Siggerud. Thank you.
    Mr. Davis of Illinois. Thank you.
    We will go to the third panel. While we are transitioning, 
I will just go ahead and introduce the witnesses.
    Panel three is Mr. Steven Williams. He is the secretary and 
director of the Office of Secretary and Administration at the 
Postal Regulatory Commission. He manages the Office of 
Secretary and Administration, which encompasses the functional 
and administrative areas of human capital, Federal advisory 
committees, information technology, budget, and purchasing.
    We have Mr. Ronald Stith, who is the assistant inspector 
general for mission support at the U.S. Postal Service Office 
of Inspector General. He is responsible for budgeting, 
contracting, purchasing, human resources, Federal advisory 
committees, and vehicle management and professional development 
activities.
    We have Ms. Nicole A. Johnson. She serves as an assistant 
chief inspector for the U.S. Postal Inspection Service. She is 
responsible for leading the Inspection Service's mission 
critical support functions, which include finance, training, 
work force management, information, business requirements and 
solutions, and technical support.
    Ms. Johnson, thank you.
    Mr. Bray Barnes is the Department of Homeland Security's 
new Acting Chief Human Capital Officer. In this position he 
oversees DHS's human capital policy, strategic planning, 
learning and development, recruitment, performance management, 
work force engagement, compensation, benefits, labor relations, 
employee relations, and other areas. Mr. Barnes first joined 
DHS in May 2007 as the Director of Workforce Relations.
    Mr. Barnes, thank you.
    And Ms. Carmen Walker has been the Deputy Officer for the 
Office of Civil Rights and Civil Liberties at the Department of 
Homeland Security since its inception in March 2003. Prior to 
joining the Department of Homeland Security, Ms. Walker was the 
Deputy Director of the Department of Treasury, Office of Equal 
Employment Opportunity Programs, where she managed the Civil 
Rights complaint operations and Equal Opportunity Policy and 
Evaluation Divisions.
    Thank you all so very much.
    If you would stand and be sworn in, as is our tradition, 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Let me thank you all for being here with us this afternoon. 
Of course, you know that a full copy of your testimony is in 
our record. The green light means that you have 5 minutes, down 
to the yellow light, you have 1 minute in which to wrap up, 
and, of course, the red light means that your time is up, and 
then we can end up having questions.
    Let me thank you so much for being here. We will begin with 
Mr. Williams.

     STATEMENTS OF STEVEN W. WILLIAMS, SECRETARY AND CHIEF 
 ADMINISTRATIVE OFFICER, POSTAL REGULATORY COMMISSION; RONALD 
 STITH, ASSISTANT INSPECTOR GENERAL FOR MISSION SUPPORT, U.S. 
  POSTAL SERVICE, OFFICE OF THE INSPECTOR GENERAL; NICOLE A. 
JOHNSON, ASSISTANT CHIEF INSPECTOR INVESTIGATIONS AND SECURITY 
 SUPPORT, U.S. POSTAL INSPECTION SERVICE; BRAY BARNES, ACTING 
 CHIEF HUMAN CAPITAL OFFICER, DEPARTMENT OF HOMELAND SECURITY; 
AND CARMEN WALKER, DEPUTY OFFICER, OFFICE FOR CIVIL RIGHTS AND 
        CIVIL LIBERTIES, DEPARTMENT OF HOMELAND SECURITY

                STATEMENT OF STEVEN M. WILLIAMS

    Mr. Williams. Thank you, Mr. Chairman. It is a privilege to 
be here. I thank the rest of the members of the subcommittee 
for also being here.
    I appreciate this opportunity to testify on behalf of the 
Commission on Workforce Diversity. You have my full statement, 
and I will summarize.
    I am the Commission's Chief Administrative Officer with 
responsibility for providing support to the Commission by 
recording official actions and overseeing general Commission 
administration, including human resources, our docket section, 
information technology, and other support services.
    The Commission is an independent agency that has exercised 
regulatory oversight over the Postal Service since its creation 
by the Postal Reorganization Act of 1970.
    Initially, this oversight consisted primarily of conducting 
public, on-the-record hearings concerning proposed rate 
changes, mail classification, or major service changes, and 
then recommending for a decision for action by the Postal Board 
of Governors.
    The Postal Accountability Enhancement Act significantly 
strengthened the Commission's authority to serve as a counter-
balance to new flexibility granted to the Postal Service in 
setting postal rates. The act requires the Commission to 
develop and maintain regulations for a modern system of rate 
regulation, consult with the Postal Service on delivery service 
standards, performance measures, consult with the Department of 
State on international postal policies, prevent cross-
subsidizations or other anti-competitive practices, promote 
transparency, accountability, and adjudicate complaints.
    The Commission is a micro-agency as defined by OMB, its 
term for an agency with fewer than 100 employees. The 
Commission has 55.
    It has been almost 16 months under the leadership of our 
Chairman Dan Blair and the enactment of the new law, and during 
this time the Commission has transitioned from the role in 
recommending postal rates into an expanded regulator.
    On March 7, 2008, the Commission released its first 
strategic and operational plan. The plan outlines the 
strategies and activities we will employ to meet our goal of 
ensuring transparency and accountability of the Postal Service 
and foster vital and efficient universal mail system.
    Strategic goal No. 6 ensures a system that fosters 
recruitment, development, and retention of a talented and 
skilled work force and recognized our work force as a valuable 
asset. As stated in the plan, the Commission is committed to a 
merit-based human resources program.
    With the enactment of postal reform and shift in 
responsibilities, the Commission benefited from the thorough 
review of its work force needs. Over the past year the 
Commission has analyzed its work force in terms of 
demographics, position characteristics, work force trends, and 
competencies. As noted, the Commission's strategic plan 
articulates short-term and ongoing operational strategies that 
include recruiting, developing and implementing the succession 
planning system, and sustaining a capital plan to encourage 
diversity.
    AS noted, the Commission has 55 employees. Our expectation 
is to grow to approximately 70. Of those currently employed, 49 
percent or 27 are female, and 51 percent or 28 are male. Women 
have assumed leadership roles as directors, assistant 
directors, and policy advisors. The addition of women to our 
successor pools increases our opportunity to improve the 
representation of women in higher leadership positions as we 
experience the turnover in the coming years.
    Our progress in recruiting and hiring minority members is 
an improving story, but much still needs to be done. Last year 
more than 25 percent of our new hires were minorities. There 
were two minority females. And 80 percent of the new hires were 
women, 30 percent of those were hired into senior leadership 
positions.
    The Commission office heads are committed to broadening our 
outreach actions. As one example, we have engaged in 
discussions with the Department of Economics at Howard 
University in order to assist in our recruitment efforts to 
fill entry level and intern positions. Managers are now held 
accountable for their efforts to increase diversity by 
including provisions in their individual performance plans.
    There is a commitment from the top down to support 
initiatives to recruit, develop, and retain skilled, high 
achieving, diverse work force.
    The Commission has been exploring additional avenues in 
reaching out to recruit from diverse pools. One such avenue 
would in participation in the Presidential management 
fellowship program. Over the years, many of those accepted have 
gone on to become senior leaders in the Government, but 
unfortunately OPM's regulations will not allow us to 
participate this year.
    Similar to the work force in other agencies, Commission 
employees are graying. By 2011, approximately 40 percent of our 
work force will be eligible to retire. That includes one-half 
of our legal staff and a third of our technical staff. While we 
have not finalized our succession strategy, we have been taking 
steps to address the gaps in our existing skills.
    In closing, I wish to reiterate the Commission's believe 
that our most valuable asset is our employees. The Commission 
is committed to a merit-based human resource program that 
ensures an exemplary, responsive, and diverse work force.
    I thank this subcommittee for its time.
    Mr. Davis of Illinois. Thank you very much.
    We will go to Mr. Stith.

                   STATEMENT OF RONALD STITH

    Mr. Stith. Thank you, Mr. Chairman, members of the 
subcommittee. I appreciate the opportunity to discuss diversity 
in the Office of the Inspector General, focusing in particular 
on the diversity of our senior executive staff and our 
developmental pool, our GS-14s and GS-15s. I will also discuss 
our programs that assure we continue to gain insight into 
diversity and the factors that affect it.
    The Office of the Inspector General values and is committed 
to diversity. We understand that diversity is important in 
developing and maintaining a high quality and high performing 
work force. Overall, 35 percent of our employees are 
minorities, as compared to 33 percent in the Federal work 
force; 40 percent are women, as compared to 44 percent in the 
Federal work force.
    The makeup of our senior executive staff and our 
developmental pool also reflects our commitment to division. 
Currently, 33 percent of our senior executives are minorities, 
as compared to 16 percent of the Federal Government, and 42 
percent are women, compared to 29 percent in the Government.
    Turning now to our executive developmental pool, minorities 
are 26 percent of our pool, compared to 21 percent in 
Government, and women are 35 percent, as compared to 32 percent 
in Government.
    Each year we look at how our retirement may affect our 
diversity. We expect that a third of our women and minorities 
who are senior executives and one-tenth of our minorities and 
women in our executive developmental pool will likely retire by 
2011. However, with the diversity of our developmental pool and 
our programs that support division, we are confident that we 
can continue the diversity of our senior executive staff.
    We have several programs that support our diverse work 
force. For example, we review quarterly reports to gauge 
diversity in our hiring and promotions. In our hiring and 
promotions we ensure that we focus on including women and 
minorities. In addition, our rating and ranking panels are 
diverse to ensure that candidates are evaluated equitably.
    As part of our hiring program, each year we recruit at 
conferences such as those sponsored by the National 
Organization of Black Law Enforcement Executives, the National 
Asian Peace Officers Association, the National Latino Law 
Enforcement Peace Officers Association, and the Women in 
Federal Law Enforcement.
    Our leadership development program includes all of our 
managers, including our executives. This program ensures that 
all managers, regardless of gender, race, or performance 
receive the same core leadership training.
    The focus of this training is to enhance their 
effectiveness in their current positions and to prepare them 
for the executive ranks. As part of this program, students 
receive theoretical and practical training to improve their 
ability to manage a diverse work force. For example, the 
program provides practical applications on how to address 
individual and generational differences, recognize and prevent 
bias, and assure equity.
    In closing, we will continue these programs and seek other 
avenues to ensure and to improve diversity in our senior 
executive ranks and in our developmental pool and throughout or 
organization. Diversity is a key element of our culture. We 
recognize that the strength of our diversity increases our 
ability to perform work that adds value to the Postal Service.
    Again, I want to thank you, and I would be pleased to 
answer any questions you may have.
    [The prepared statement of Mr. Stith follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.082
    
    [GRAPHIC] [TIFF OMITTED] T4913.083
    
    [GRAPHIC] [TIFF OMITTED] T4913.084
    
    [GRAPHIC] [TIFF OMITTED] T4913.085
    
    Mr. Davis of Illinois. Thank you very much, Mr. Stith. We 
will proceed to Ms. Johnson.

                 STATEMENT OF NICOLE A. JOHNSON

    Ms. Johnson. Good afternoon, Chairman Davis and members of 
the subcommittee. It is my honor to be here today to discuss 
the Inspection Service's commitment to a diverse and inclusive 
work force. As one of our country's oldest Federal law 
enforcement organizations, the Inspection Service has a long, 
proud, and successful history of securing the Nation's mail 
system and ensuring public trust in the mail.
    I appreciate the opportunity to be here today to highlight 
our diverse recruitment, retention, and leadership development 
programs.
    The Postal Inspection Service embraces diversity as 
uniqueness and backgrounds, experiences, perspectives, and 
personal characteristics of our employees, customers, and 
stakeholders. Our 2,900-plus employees are multi-generational 
and represent people with diverse and varied backgrounds. We 
adhere to the philosophy that a diverse and inclusive 
environment makes good business sense and promotes a strong, 
successful organization. We recognize the challenges in 
recruiting and retaining a diverse work force. Along with the 
exit of baby boomers from the work force, we must also consider 
the mandatory retirement of Federal law enforcement officers.
    We are developing our future leaders through local 
development programs, a national career leadership program, 
corporate succession planning, and training.
    Local development programs focus on the early 
identification and development of employees with strong 
leadership potential. The career leadership program is a 
National Inspection Service program designed to develop and 
prepare initial level supervisors for senior management 
positions. The corporate succession planning process allows us 
to identify and manage successor pools for executive positions. 
We provide our future leaders with the opportunities to develop 
their skills and abilities and gain experience by leading major 
national projects or teams and by serving in acting executive 
or mid-level manager positions.
    The Postal Inspection Service concentrates recruitment and 
retention efforts on identifying talent within the organization 
and from outside labor markets. Field division recruitment 
specialists use various outreach methods to communicate 
awareness of our organization to potential applicants. 
Recruiters partner with colleges, universities, and 
organizations as part of their outreach strategy. As an 
example, in November 2006 the Inspection Service partnered with 
the Woman in Federal Law Enforcement to sponsor and create a 
video honoring women's 35 years of service in Federal law 
enforcement. The Inspection Service was recognized by the Women 
in Federal Law Enforcement for contributing to the recruitment 
of females to Federal law enforcement positions.
    Concerning the demographics of our law enforcement 
executives and managers, I would like to share with you some 
information concerning the composition of this group. Today, of 
the 31 Inspection Service law enforcement executives, women 
comprise 17 percent of our executive ranks, and minorities 
comprise 27 percent.
    In regards to our current executive feeder pool of 379 
employees, minorities comprise over 26 percent and women 
comprise nearly 21 percent.
    Over the past 10 years, we have seen increases in the 
participation rate of females, African American and Hispanic 
males and females, and Asian Americans. We seek to build, 
foster, and sustain an inclusive and highly skilled work force. 
We embrace the same belief as the Postal Service, which is open 
and inclusive development systems that allow employees to align 
their individual career goals with the goals of the 
organization. Our directive is to provide our employees with 
opportunities to fully participate, contribute, and engage in 
our mission.
    Thank you. I would be pleased to answer any questions the 
subcommittee members may have.
    [The prepared statement of Ms. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.086
    
    [GRAPHIC] [TIFF OMITTED] T4913.087
    
    [GRAPHIC] [TIFF OMITTED] T4913.088
    
    [GRAPHIC] [TIFF OMITTED] T4913.089
    
    [GRAPHIC] [TIFF OMITTED] T4913.090
    
    [GRAPHIC] [TIFF OMITTED] T4913.091
    
    Mr. Davis of Illinois. Thank you very much, Ms. Johnson.
    Mr. Barnes.

                    STATEMENT OF BRAY BARNES

    Mr. Barnes. Thank you, Mr. Chairman, members of the 
subcommittee. It is truly an honor for me to appear before you 
today to discuss diversity issues within the Department of 
Homeland Security, especially regarding our career Senior 
Executive Service. Also with me today, Mr. Chairman, is Carmen 
Walker, Deputy Officer, the Office of Civil Rights and Civil 
Liberties from the Department.
    Secretary Chertoff, Acting Deputy Secretary Paul Snyder, 
and Deputy Under-Secretary for Management, Elaine Duke, are 
committed to increasing diversity within the Department, 
particularly within the Department's career Senior Executive 
Service. For example, under Secretary Chertoff's leadership, 
the number of career senior executives who are persons with 
disabilities has increased dramatically.
    It is my privilege to serve as the Department's Acting 
Chief Human Capital Officer, a position which I was just 
appointed to last month, and also as its Director of Workforce 
Relations and Performance Culture, a position that I held since 
joining the Department in May 2007. My service to the 
Department has furthered my understanding of the importance and 
benefits of maintaining a qualified and diverse work force.
    The Department has continued its efforts to develop such a 
work force, particularly with regards to its core career senior 
executives. To date, that effort has enjoyed achievements that 
DHS will continue to buildupon. DHS will continue to address 
the challenges that remain. Indeed, we are making an effort to 
develop a qualified and diverse pool of applicants for SES 
positions by preparing current GS-14 and GS-15 employees 
through new programs such as mentoring and coaching programs, 
rotational assignments, the DHS fellows program, and the SES 
candidate development program, of which of the 23 DHS employees 
just selected for the next SES candidate development program, 
22 percent are African American, 13 percent are Hispanic, and 
30 percent are women.
    We believe it is imperative to explore a variety of means 
to ensure more diverse applicant pools for all of our jobs for 
the present and future years to come.
    Starting with recruitment efforts, we have implemented 
Department and component recruiting strategies designed to 
improve the diversity of DHS talent pool, including creating an 
SES-level Director of Recruiting and Diversity within our Chief 
Human Capital Office who is responsible for implementing 
strategic programs to recruit a larger diversity talent pool 
for all jobs within DHS, including the SES; establishing a 
formal partnership with Urban League's Black Executive Program 
[BEP], whereby 150 DHS employees have volunteered with 
managerial endorsement to serve as presenters and speakers at 
BEP events at historically Black colleges and universities, 
pursuing similar partnerships with the National Association of 
Hispanic Federal Executives and the African American Federal 
Executive Association, and exploring the assistance of an 
executive search firm with a proven record with enhancing 
diversity.
    In my previous role as Director of Workforce Relations and 
Performance Culture, I initiated plans to create a Labor/
Management Council within DHS. As Acting Chief Human Capital 
Officer, I will ensure that diversity is a focus of these 
councils.
    In order to demonstrate the Department-wide commitment to 
diversity, DHS has designed our Management Council to be a 
Diversity Council. This council is composed of top-level 
officials from every component and is chaired by the Deputy 
Under-Secretary for Management. Among the Council's most 
pressing actions will be to issue DHS corporate diversity 
strategy and to implement a diversity action plan for the 
remainder of fiscal year 2008 through 2010.
    In the coming year, DHS will pursue a number of other 
avenues aimed at increasing diversity. As a first step, we have 
begun to identify requirements for a consultant to conduct a 
cultural audit of the Department. We are reviewing our SES 
hiring procedures to identify potential practices and 
procedures that would integrate attention to diversity in our 
process. Our plans include establishing an external diversity 
outreach advisory forum of interested stakeholders, ensuring 
accuracy of current racial and gender information, prototyping 
diversity management training for managers and executives, and 
issuing specific guidance to executives holding diversity 
advocate competencies in their performance plans.
    These efforts are critical, given that 26 percent of our 
career executives are eligible to retire in 2008, 34 percent in 
2009, and 41 percent in 2010.
    The Department of Homeland Security is only 5 years old. 
When the President and Congress called for the integration of 
22 disparate agencies, we answered the call and stood up the 
agency that is today nearly 210,000 employees strong. By 
reflecting on America's diversity, our employee work force will 
provide a wide range of ideas and solutions to protect America, 
and we are committed to achieving a DHS diverse work force, 
including our executive cadre.
    We are pleased with your interest and support in ensuring 
that DHS continues to increase the diversity in its work force, 
and we do look forward to working with you further to ensure 
continued success.
    [The prepared statement of Mr. Barnes follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.092
    
    [GRAPHIC] [TIFF OMITTED] T4913.093
    
    [GRAPHIC] [TIFF OMITTED] T4913.094
    
    [GRAPHIC] [TIFF OMITTED] T4913.095
    
    [GRAPHIC] [TIFF OMITTED] T4913.096
    
    Mr. Davis of Illinois. Thank you very much, Mr. Barnes.
    Mr. Barnes. Thank you, sir.
    Mr. Davis of Illinois. We will go to a round of 
questioning. We thank you, Ms. Walker. We understand that you 
will not testify, but you are, indeed, available to respond to 
questions. Thank you very much.
    Let me ask you, Mr. Williams, what recruitment and outreach 
efforts is the PRC taking to enhance the diversity of its work 
force, including its profile of women and minorities? And in 
this context, can you discuss the efforts that the PRC recently 
made as it hired staff to support its expanded activities under 
the Postal Reform Act?
    Mr. Williams. I will try. We are in the process of hiring 
and expanding. In fact, we put up three again today. In the 
past year, we have hired eight females, lost two males, and 
four females and three males retired, so we netted in the past 
year four females and one male.
    Like I said, we have been very struggling with attracting 
minority males. We have certainly had a couple, and I think 
both retired recently, so this is a snapshot for us. It leaves 
us with fully recognizing our lack.
    The chairman has been very strong. Since he came down, he 
has made this quite clear that this is something he wants to 
see corrected. He has developed performance plans for all of 
his managers, which did not exist a year ago, and he has put 
that at the top of the goal list for each manager. And the 
managers do the hiring. They are reviewed by a panel that is 
selected.
    We are on the way. We are beginning to recognize it. But I 
don't have anything to show you now.
    Mr. Davis of Illinois. Well, let me also ask you what is 
the PRC's executive development selection process, and how does 
that compare with the Postal Service's selection process?
    Mr. Williams. It is different. We do not participate in 
their PCES, nor are we eligible to participate in SES, so it is 
somewhat different there. If we need a director, which is our 
highest staff office, those are paneled and selected, usually 
by the chairman with the concurrence of the other 
Commissioners. Your Assistant Directors are similarly paneled. 
They are vacancy announcements. Usually all are, the directors 
and the assistant directors. So you do have a panel review. The 
Directors are reviewed by the Commissioners.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Stith, I was somewhat intrigued and certainly impressed 
by the numbers that you gave. Could you share those with us 
again? Then I am going to want to know how did you really get 
there, to those?
    Mr. Stith. Seeing that overall 35 percent of our employees 
are minorities, compared to 33 percent in the Federal work 
force; 40 percent are women, as compared to 44 percent in the 
Federal work force; of our senior executives, 33 percent are 
minorities, 42 percent are women; of our executive 
developmental pool, 26 percent are minorities and 35 percent 
are women.
    Mr. Davis of Illinois. Let me just ask about the 33 percent 
of the senior executives minorities. I am intrigued by that 
number. The process that you actually have gone through to 
arrive at those numbers consists of what?
    Mr. Stith. Well, we have looked at all of our senior 
executives. We have 24 senior executives, and 18 of our senior 
executives are either women and/or minorities, and that 
includes Hispanics, Blacks, and women.
    Mr. Davis of Illinois. And so it is pretty obvious to me 
that the agency has put forth--that didn't happen accidentally. 
I mean, it didn't just happen without some tremendous focus to 
make sure that there was real diversity within the agency. I 
think that is quite good, myself, especially as I compare your 
agency or your entity with lots of others that I come into 
contact with.
    Ms. Johnson, what is the Inspection Service's executive 
development and selection process?
    Ms. Johnson. Chairman Davis, the Inspection Service fully 
embraces the Postal Service's corporate succession planning 
process; however, we also supplement it with the career 
leadership program, which is our developmental program that 
helps to establish a strong feeder pool to our succession 
planning process.
    Mr. Davis of Illinois. Let me ask, how do people get into 
the career leadership development program?
    Ms. Johnson. We use what we believe to be a very effective, 
comprehensive approach. It begins with early identification at 
the local level. We utilize and encourage our managers to coach 
and mentor. They identify leadership, and each of the 
executives within the field have established local development 
programs. The local development programs feed into our career 
leadership programs. Individuals self-nominate or managers 
nominate individuals into our career leadership program.
    Our career leadership program has a five-member board of 
diverse executives that are responsible for reviewing the 
applications. They interview the participants and the managers. 
They track the developmental activities, and they monitor our 
success indicators. From there, nominations occur to our career 
succession plan.
    Mr. Davis of Illinois. And how are managers held 
accountable for diversity in the Inspection Services?
    Ms. Johnson. In several ways, Chairman Davis. We believe in 
managerial and organizational accountability. First, from the 
standpoint of recruitment, we believe it is important to begin 
with accountability at the point of recruitment. From that 
standpoint, we have ad hoc field recruitment specialists that 
have the responsibility for submitting after-action reports to 
the headquarters recruitment program manager. The headquarters 
recruitment program manager evaluates these after-actions 
reports which detail recruitment activities on a quarterly 
basis. These after-action reports are evaluated from a 
diversity and operational need perspective, and information 
concerning trends, concerns, things related to recruitment are 
provided in terms of feedback to executive managers.
    With regards to our feeder pool, our L-14, L-15 feeder 
pool, which represents comparability to the GS-14 and GS-15 
feeder pool, we feel that we achieve accountability there with 
the career leadership program. The role of the Career 
Leadership Board is to interface across the complexities of the 
organization. They interface with senior management, as well as 
local executives, looking at the representation of the career 
leadership participant, providing feedback, working with the 
managers, and that helps to strengthen our feeder pool, which 
evolves into our career succession plan. There we believe that 
the career succession planning process, in and of itself, holds 
managers accountable because the components of the career 
succession plan include nominations, reviews, evaluations, and 
significant manager participation.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Barnes or Ms. Walker, what recruitment efforts does the 
Department of Homeland Security have as it relates to efforts 
to enhance diversity, and especially relative to its profiling 
of women and minorities?
    Mr. Barnes. Mr. Chairman, as I outlined in my speech, we 
have a number of recruiting efforts. The first I would like to 
point out is the fact that we now have a dedicated executive in 
charge of diversity within the Department, and additionally 
under his office we have a Coordinator of Diversity and 
Veterans Outreach, two people that are full-time, dedicated to 
these efforts. As such, sir, we have reached out to the 
organizations such as the Black Executive Program, where we 
have engaged them to reach out to historic Black colleges and 
universities. Our members within the DHS work force are going 
out to career fairs within these colleges to recruit. 
Additionally, we have reached out to some of the other 
organizations, as I pointed out, such as the Hispanic Federal 
Executives Association, as well as the African American Federal 
Association, and engaged them, as well as to how we can develop 
a more diverse and qualified work force.
    Third, sir, we are exploring an executive search firm that 
is going to hopefully broaden our pool of qualified and diverse 
candidates to join the DHS work force.
    Mr. Davis of Illinois. Do naturalized American citizens 
have more difficulty obtaining security clearances and 
therefore more difficulty obtaining employment with DHS?
    Mr. Barnes. Well, sir, I don't know the exact status of the 
naturalized citizens, but certainly we would be happy to supply 
the chairman's office with any information regarding that. 
However, it is certainly an area that may be worth 
consideration once they become naturalized citizens, to include 
them in our pool.
    Mr. Davis of Illinois. We would appreciate that, because we 
have had inquiries and complaints from organizations and groups 
who represent naturalized citizens or from naturalized 
citizens, themselves, who feel that there might be some 
impediment based upon their citizenship status and the whole 
question of security and how it fits in, so we would, in fact, 
appreciate that information.
    Mr. Barnes. We will be happy to provide that information, 
sir.
    Mr. Davis of Illinois. Thank you very much. We appreciate 
all of you being with us, and you are excused.
    We will proceed to our fourth and last panel. While we are 
transitioning them in, I will go ahead and introduce them.
    Mr. William Bransford is the general counsel and lobbyist 
for the Senior Executives Association. Mr. Bransford is a 
partner in the law firm of Shaw, Bransford, Bellow, and Roth 
PC, where he has practiced since 1983. His practice is 
concentrated on the representation of Federal executives, 
managers, and employees before the U.S. District Courts, Merit 
Systems Protection Board, the Equal Employment Opportunity 
Commission, the Office of Special Counsel, Offices of Inspector 
General, and with offices that adjudicate security clearances.
    Mr. William Brown has served as national president of the 
African American Federal Executives Association, Inc. [AAFEA], 
since its founding in 2002. AAFEA promotes the professional 
development and advancement of African Americans into and 
within the senior levels of the U.S. Government, sponsors an 
annual executive leadership and training conference, and 
advocates for programs, policies, practices, and processes that 
promote career-enhancing opportunities for African Americans. 
Membership consists of active and retired Federal employees in 
grades GS-13 through the SES.
    Ms. Rhonda Trent is the president of Federally Employed 
Women [FEW]. FEW is an advocacy group that works to improve the 
status of women employed by the Federal Government and by the 
District of Columbia government. Ms. Trent is a contracting 
officer assigned to the Joint Strike Fighter Program in Crystal 
City, VA.
    Dr. Carson Eoyang is retired from Federal service and is 
currently volunteering as the executive director of the Asian 
American Government Executives Network. Prior to that, he was 
appointed as assistant deputy director of National Intelligence 
for Education and Training, and chancellor of the National 
Intelligence University.
    Mr. Jose Osegueda is president of the National Association 
of Hispanic Federal Executives. He recently retired from the 
Department of Agriculture's Office of the Assistant Secretary 
of Civil Rights, where he was responsible for the development 
of policies aiming to remove barriers that have traditionally 
prevented the increase of Hispanic representation in the 
Federal work force.
    And Ms. Darlene Young, who is president of the National 
Association of Blacks in Government [BIG]. BIG was organized in 
1975 and incorporated as a non-profit organization under the 
District of Columbia jurisdiction in 1976. BIG has been a 
national response to the need for African Americans in public 
service to organize around issues of mutual concern and use 
their collective strength to confront workplace and community 
issues. Ms. Young is currently employed at the U.S. Department 
of State as a computer specialist.
    Let me thank all of you for coming, for staying, and for 
being with us at this hour.
    If you would all stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Again, let me thank all of you for coming. As all of you 
have testified probably a number of times, you know that the 
green light means that you have 5 minutes in which to summarize 
your testimony. The yellow light means you have a minute left. 
Of course, the red light means that we are trying to end up for 
the day.
    Let me thank you all for being here. We will begin with 
you, Mr. Bransford.

   STATEMENTS OF WILLIAM BRANSFORD, GENERAL COUNSEL, SENIOR 
   EXECUTIVES ASSOCIATION; WILLIAM BROWN, PRESIDENT, AFRICAN 
    AMERICAN FEDERAL EXECUTIVES ASSOCIATION; RHONDA TRENT, 
 PRESIDENT, FEDERALLY EMPLOYED WOMEN; CARSON EOYANG, EXECUTIVE 
 DIRECTOR, ASIAN AMERICAN GOVERNMENT EXECUTIVES NETWORK; JOSE 
 OSEGUEDA, PRESIDENT, NATIONAL ASSOCIATION OF HISPANIC FEDERAL 
 EXECUTIVES; AND DARLENE YOUNG, PRESIDENT, BLACKS IN GOVERNMENT

                 STATEMENT OF WILLIAM BRANSFORD

    Mr. Bransford. Thank you, Mr. Chairman.
    The Senior Executives Association, the professional 
association representing the interests of career Senior 
Executive Service members and those holding equivalent 
positions, appreciates the opportunity to testify about the 
Senior Executive Service Diversity Act.
    We applaud your leadership on this important issue of 
achieving diversity in the career Senior Executive Service, and 
we assure you that SEA wants to work with you and others who 
care about this issue. After all, the success of sound 
Government and the strength of our democracy depend on it.
    SEA believes that, because of our close association with 
career senior executives, we can offer ideas based on practical 
experience that will help attain a diverse executive corps. We 
do believe we have some suggestions outlined below that can 
strengthen the bills.
    SEA sees several areas where the Government could 
dramatically improve diversity. First, we believe improved and 
accessible, clear data needs to be developed. Second, specific 
work needs to be done to build pipelines for career development 
to assure that minorities and women are actually in a place to 
be promoted to the Senior Executive Service.
    Finally, and necessary for the other factors to work, 
agencies must adopt a culture of leadership that emphasizes 
being fair to and inclusive of all employees.
    The first step in this is to obtain a centralized OPM 
Senior Executive Service office, which we believe should 
provide effective oversight and management to assure that those 
parts of the diversity goal become a reality.
    In the past, OPM has had an office for the Senior Executive 
Service and it worked effectively to monitor and manage the SES 
Government-wide. Currently, different offices within OPM share 
the responsibility for managing the SES, with policy in one 
office and implementation of that policy in another office. In 
our opinion, the effect has been a diminishment in the 
effectiveness of the management of the Government-wide SES 
corps. With respect to diversity, this means that agencies use 
different systems and standards for recruiting into the SES, 
with varying outcomes on diversity resulting in different 
agencies.
    With one office to manage the SES, greater diversity is 
more likely to become a reality sooner rather than later.
    One provision of the bill does cause us concern. This is 
the provision that requires panels in the role as gatekeepers 
to the SES. These panels could slow the already burdensome 
process of promoting general schedule employees to the SES and 
could further complicate and hinder the overall selection 
process.
    SEA suggests that the current legislation be improved by 
allowing agencies to choose between diversity selection panels, 
as stated in the bills, or effective oversight and management 
of its SES selection process by creating diversity 
subcommittees of executive resources boards with authority and 
responsibility to oversee the SES selection process, including 
the development of pipelines.
    These subcommittees would consist entirely of peer SES, a 
majority of whom must be minorities or women, and they would 
have veto or oversight power over SES selection. This would 
provide a strong mechanism to encourage diversity, while not 
adding any bureaucratic hurdles to an already difficult SES 
selection process.
    SEA recommends this alternative because it has proven to be 
effective. It was used in the 1990's at the Department of 
Energy under the leadership of then Secretary Bill Richardson. 
Those who served in the DOE Executive Resources Board 
Subcommittee tell SEA that it positively improved diversity in 
the SES and had a major impact on changing the culture to 
encourage the consideration of diversity in the SES selection 
process.
    Last, we believe that diversity will be further helped 
along if Congress and the administration constantly strive to 
assure that the SES is attractive as a career goal to all 
general schedule employees. If quality general schedule 
employees are content to stay at the GS-14 or GS-15 levels 
because of pay compression and a sense that the SES pay system 
is not being fairly administered, diversity may be harder to 
achieve.
    Reobtaining the Senior Executive Service's former stature 
and prestige will assure that the most qualified candidates 
apply, including minority and women candidates with impressive 
credentials.
    I thank you again for the opportunity to testify before 
this subcommittee. SEA looks forward to continuing to work with 
the subcommittee on what our organization sees as one of the 
most important matters facing our members and our future 
members. We hope to continue to be an effective voice of the 
Federal Government career executive leadership on this and 
other matters about the Civil Service.
    Thank you.
    [The prepared statement of Mr. Bransford follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.097
    
    [GRAPHIC] [TIFF OMITTED] T4913.098
    
    [GRAPHIC] [TIFF OMITTED] T4913.099
    
    [GRAPHIC] [TIFF OMITTED] T4913.100
    
    [GRAPHIC] [TIFF OMITTED] T4913.101
    
    [GRAPHIC] [TIFF OMITTED] T4913.102
    
    [GRAPHIC] [TIFF OMITTED] T4913.103
    
    Mr. Davis of Illinois. Thank you very much, Mr. Bransford.
    We will proceed to Mr. Brown.

                   STATEMENT OF WILLIAM BROWN

    Mr. Brown. Thank you, Mr. Chairman.
    As you mentioned, I am a retired Federal Senior Executive 
Service and president of the African American Federal Executive 
Association. I would like to begin my remarks by thanking you 
and Senator Akaka, your committee, and staff for introducing 
this landmark legislation. This legislation will go a long way 
in correcting the under-representation of minorities and women 
in the SES. This under-representation was validated by GAO's 
testimony before this subcommittee on May 10, 2007.
    With regards to African Americans, GAO testified that only 
8.6 percent of the approximately 6,300 career members of the 
SES were African Americans. Between October 2000 and October 
2006 the percentage of African American men dropped from 5.5 to 
5.1 percent. During the same period the percentage of African 
American women in the SES increased from 2.9 to 3.5 percent.
    Looking at the total percentages, in October 2000 African 
Americans represented 8.4 percent of the SES, and 6 years later 
they represented 8.6 percent, an increase of 2/10 of a percent 
in 6 years.
    Approximately 90 percent of the entire cadre of career 
SESers are expected to retire in the next 10 years. If current 
trends are allowed to continue, in 10 years, when we would have 
replaced these executives, African Americans may represent 8.9 
percent, or an overall increase of 3/10 of a percent.
    Another way of saying this is: at the current trends, 10 
years from now over 92 percent of the SES will not be African 
Americans.
    The SES Diversity Act will correct this situation by 
ensuring that as agencies go about the business of filling 
vacancies, the selection process will be fair, consistent among 
Federal agencies, and minority and women are considered and 
evaluated against the same objective criterias as others.
    Our organization's 225 African American senior leaders have 
written to their Members of Congress urging passing of this 
legislation in its present form. The responses we have received 
overwhelmingly support this act; yet, despite the under-
representation of minorities, some are calling for voluntary 
implementation of the act's requirement of the use of a diverse 
selection panel.
    AAFEA does not support such viewpoints. Federal agencies 
have had years to voluntarily diversify, and failed to do so, 
as the Government's own statistics point out. We see voluntary 
implementation as an effort to slow roll the diversity mandate, 
deprive our Nation of the talent it desperately needs to 
maintain its position of leadership in the world, and deprive 
our Nation of the opportunity to avert an approaching work 
force crisis.
    Since 2003, our organization has conducted three training 
workshops where we trained over 450 senior-level African 
Americans in core subjects critical for any member of the SES. 
Many of these courses were taught by retired senior executives 
like myself and have produced for our Nation a cadre of what I 
refer to as leadership-ready candidates for Senior Executive 
Service positions.
    Despite this training by experts, African Americans 
continue to be passed over disproportionately for SES 
positions.
    Mr. Chairman, we are a Nation at war. Our men and women, 
White, brown, Black, short, tall, are being called to fight 
and, if necessary, die defending our Nation's interests around 
the world. We are also a Nation at war at home with bigotry and 
indifference to minorities, with access to SES positions being 
denied every day to people of color. Our military is not just 
looking for one complexion of people to serve, so why should 
our Senior Executive Service be any different?
    AAFEA says full speed ahead with this act. It is a step in 
the right direction. it levels the playing field and draws upon 
the full resources of our Nation to solve the impeding work 
force crisis.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.104
    
    [GRAPHIC] [TIFF OMITTED] T4913.105
    
    [GRAPHIC] [TIFF OMITTED] T4913.106
    
    [GRAPHIC] [TIFF OMITTED] T4913.107
    
    Mr. Davis of Illinois. Thank you very much, Mr. Brown.
    We will move to Ms. Trent.

                   STATEMENT OF RHONDA TRENT

    Ms. Trent. Thank you, sir. FEW very much appreciates this 
opportunity today to participate in this important hearing, and 
the passage of the bills in both congressional chambers is a 
top legislative priority for FEW.
    FEW also agrees with the panel compositions that is now set 
forth in the bill as it is written. For 40 years, Federally 
Employed Women has worked to end sexual discrimination and 
enhance opportunities for the advancement of women in the 
Government. Every day nationwide FEW is aware of the issues 
facing women throughout the Federal Government. We also provide 
a variety of different types of diversity training, which is 
annually given in our national, regional, and chapter training 
programs.
    With respect to the two bills, FEW and its members have 
been extremely active. First, we have hand delivered 
individualized packets to every House and Senate Member that 
enclosed a fact sheet on these bills. Included was a letter 
requesting that the legislator co-sponsor or support these 
measures. We also enclosed employment statistics detailing the 
number of Federal employees working in each congressional 
District and State. Within a couple of days several staffers 
contacted our Washington representative to announce that their 
bosses were adding their names to the co-sponsors.
    Our members also have been extremely busy sending letters 
directly to their legislators urging them to co-sponsor these 
bills. So far, these letters have successfully resulted in two 
more co-sponsors, which we are very proud of.
    Finally, I want to talk about, I also met with OPM on two 
different occasions because Federally Employed Women is very 
concerned about the statistics and the status of women in the 
Government. We wanted to pull statistics and do a Federal 
survey. I met with Linda Springer and I also met with OPM 
counsel. They both discouraged this survey to be sent out by 
FEW. However, I am glad to report that on March 10th of this 
year FEW did, indeed, send out this survey to 22 Federal 
agencies. The survey asked a variety of questions regarding 
alternative work schedules, training opportunities, career 
development programs, upward mobility programs, formal 
mentoring programs, and training dollars which are targeted 
toward women. This survey will be used to assess the areas 
needing support and the direction for women to advance in their 
careers. It will be compiled into a report and presented to the 
various agencies responding, as well as to Congress.
    Our goal is to establish a tool to direct focus, identify 
barriers, and plan for the future needs to ensure that the 
Federal female work force is receiving the support and 
direction that it deserves.
    In summary, FEW would like to suggest that in order to 
improve the representation of women in the management and other 
senior positions, we must--and I emphasize must--increase the 
development of those feeder pools that everybody keeps talking 
about. With that in mind, we must ensure that managers and 
supervisors are held accountable for diversity. We must ensure 
that women have meaningful and decisive roles on committees, 
task forces, and other decisionmaking entities, and we must 
ensure that the assignments given to women are not purely task 
oriented but rather include decisionmaking and strategic 
thinking roles. We must provide networking training on issues 
that affect women in the work force. And this is a big one, by 
far, the lack of training and cross-training has been cited as 
a major impediment for women moving in the top levels of the 
Federal Government.
    Women need to have leaders to whom they can ask questions, 
obtain advice about their careers, receive suggestions. 
Recruitment will not happen if you will not develop the feeder 
pool.
    Again, FEW very much appreciates the subcommittee and 
chairman's interest in increasing the diversity in the Senior 
Executive Service and all the support that you have given the 
Federal work force in the past. And I and the over 1 million 
Federally Employed Women offer to help in any way to ensure 
that more women and minorities can aspire and succeed to 
entering the Senior Executive Service.
    Thank you.
    [The prepared statement of Ms. Trent follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.108
    
    [GRAPHIC] [TIFF OMITTED] T4913.109
    
    [GRAPHIC] [TIFF OMITTED] T4913.110
    
    [GRAPHIC] [TIFF OMITTED] T4913.111
    
    [GRAPHIC] [TIFF OMITTED] T4913.112
    
    Mr. Davis of Illinois. Thank you very much, Ms. Trent.
    We will proceed to Dr. Eoyang.

                   STATEMENT OF CARSON EOYANG

    Mr. Eoyang. Good afternoon, Chairman Davis.
    On behalf of the Asian American Government Executive 
Network, we are very appreciative of this opportunity to speak 
in favor of the Senior Executive Service Diversity Assurance 
bill. We applaud your proactive leadership in addressing this 
critical but neglected challenge confronting our Federal Civil 
Service. We proudly join our fellow Federal executive 
associations to support this landmark legislation.
    Our issues simply mirror the central concerns of this 
committee. First, Asian Pacific Americans are significantly 
under-represented in the SES. Second, progress in SES diversity 
has been slow, uneven, and inconsistent. Third, the SES 
Diversity Assurance Act is long overdue.
    When AAGEN previously testified on this subject before you 
in October 2003, we made the following observations. According 
to the GAO, representation of APAs in career SES was the most 
significant disparity among all of the women and racial and 
ethnic groups studied by the GAO. The GAO reports confirmed 
that APAs are severely under-represented at the SES and other 
senior levels of the Federal Government, and that there are 
serious concerns about the lack of conclusion of APAs at the 
pipeline levels and in succession planning.
    Regrettably, 4\1/2\ years later inclusion of APAs in the 
SES has not sufficiently improved. While the GAO projections 
may not have been perfect in every agency, to our knowledge 
there is no agency whose SES ranks matches or exceeds the APA 
ratio of 5.89 percent of the entire Federal executive branch. 
The number of Asian Pacific American SES in the entire Federal 
Government only totaled 2.4 percent in 2007.
    With the potential retirement of many if not most of the 
career SES over the next 5 years, ensuring diversity in our 
senior ranks is even more important as we grow the next 
generation of senior executives. While administration officials 
continue to urge progress in making the Federal Civil Service 
and its top leadership look like America, this progress has 
been slow, uneven, and inconsistent.
    The Federal Government should have a diverse work force not 
only to demonstrate that it reports the American population, 
but also because diversity enhances the effectiveness of 
Government. For example, our various law enforcement agencies 
at all levels across the country must begin to mirror our 
Nation's diversity if they are to maintain domestic peace and 
equitably enforce our laws within and across our social strata. 
Failure to have diversity in the law enforcement may lead to 
misunderstanding and assumptions of prejudice by communities 
that are not represented. However, the Department of Justice 
reports that their APA percentage was only 0.7 percent, which 
was half of what it was in the year 2000.
    There is wide disparity in the degree of work force 
diversity across the Federal Government, with little concrete 
evidence on why some agencies have consistently been 
unrepresented in the Nation, as a whole, while others have made 
measured, if only partial, progress during the same timeframe.
    Unfortunately, there has been too little study of recent 
executive branch diversity efforts. While it is easy to measure 
the changes in demographics, it is more difficult to understand 
the causes. It is important that the executive branch and the 
Congress address the various factors that promote and inhibit 
work force diversity, such as minority recruitment, building 
talent pipelines, succession planning, management development, 
and, most importantly, sustained commitment of agency senior 
leaders to diversity.
    The SES Diversity Assurance Act is a long-overdue and 
welcome correction to past policies and practices that have not 
been adequate to expand executive diversity across our 
Government. Without this legislation, it is unlikely the SES 
will adapt quickly enough to meet the enormous global and 
domestic challenges of the 21st century.
    This legislation will require the Federal Government to 
institute policies, practices, and reporting processes that 
will clearly advance our common goals of equal opportunity and 
diversity.
    In conclusion, we encourage both committees to continue to 
exercise vigorous oversight over the evolution of the SES. We 
recommend that regular studies by the GAO be conducted to 
assess the degrees and rates of progress in executive diversity 
across all Federal agencies. Where particular challenges and 
obstacles for specific minorities, such as Asian Pacific 
Americans, are identified, executive branch, in cooperation 
with the Congress, should formulate and implement appropriate 
remedies and solutions to ensure that our Senior Executive 
Service is truly reflective of all parts of American society.
    Thank you for providing this opportunity to share our 
views.
    [The prepared statement of Mr. Eoyang follows:]

    [GRAPHIC] [TIFF OMITTED] T4913.113
    
    [GRAPHIC] [TIFF OMITTED] T4913.114
    
    [GRAPHIC] [TIFF OMITTED] T4913.115
    
    [GRAPHIC] [TIFF OMITTED] T4913.116
    
    [GRAPHIC] [TIFF OMITTED] T4913.117
    
    Mr. Davis of Illinois. Thank you very much.
    We will go to Mr. Osegueda.

                   STATEMENT OF JOSE OSEGUEDA

    Mr. Osegueda. Chairman Davis, thank you for the opportunity 
to appear before you today. I recently retired from Federal 
service, and I am a true witness of the difficulties facing 
Hispanics who try to achieve and pursue senior level positions 
in the Federal work force. We are proud today to represent all 
senior level Hispanics in the Federal work force and to speak 
on their behalf today at this hearing.
    It is clear that, with regard to Hispanic representation at 
the senior level of the Federal Government, the current 
selection methodology has not improved the bottom line. 
Presently, Hispanics represent 3.6 percent of the career SES 
cadre, while making up 13.8 percent of the national civilian 
labor force.
    Using these climate changes, it means that Hispanics today 
are under-represented by close to 500 career SES positions. 
Even worse, Hispanic representation is actually declining in 
the feeder population leading to the career SES level, the GS-
13 and GS-15 grades. According to the most recent OPM reports, 
Hispanic representation declined by 2.8 percent, or 570 
positions, from 2006 to 2007.
    That Hispanic under-representation in the Federal work 
force has reached crisis proportions is born out of these 
telling statistics. Hispanics remain the only under-represented 
ethnic group at 7.7 percent in the overall government work 
force. When compared to the present level of representation in 
the national civilian labor force, 13.8 percent, there is a 
Hispanic under-representation gap of 6.1 percent. That 
represents 120,000 jobs, or approximately $5.5 billion in 
salaries along to the Hispanic community.
    To place the capstone on this dismal picture of under-
representation with another annual hiring rate of 0.13 percent 
over the past 4 years, Hispanic representation in the Federal 
work force will never reach parity with the numbers in the 
civilian labor force. Yet, despite this history of 
institutionalized exclusion, on November 16, 2007, OPM Director 
Linda Springer eliminated the only Federal personnel hiring 
authority established with the express purpose of promoting 
diversity among minorities.
    NAHFE supports the intended purpose of H.R. 3774 and S. 
2148, to establish an office within OPM that will promote 
diversity in the recruitment and selection of career SES 
positions. NAHFE firmly believes it is time that the 
responsibility for oversight, monitoring accountability for SES 
selections, including the establishment of diversity evaluation 
panels, is moved from individual agencies to a central 
oversight office.
    Clearly, the responsibility for accountability in diversity 
selections rests with the gatekeepers to the recruitment 
selection process, and the record speaks loud and clear that 
leaving independent authority for ensuring diversity in career 
SES selections with agencies will not improve the dismal bottom 
line. One need only look at the current level of Hispanic 
representation in several key Executive agencies to understand 
why it is time to abandon the failed SES selection methods of 
the past and turn to new, creative ideas for improving 
diversity at the SES level.
    For these reasons, NAHFE supports moving the gatekeeper 
responsibility for overseeing diversity in career SES 
recruitment and selections away from agencies to a central 
oversight office within OPM and the establishment of SES 
evaluation panels within agencies which makeup is reflective of 
our Nation's diversity.
    While we clearly share the Senior Executive Association's 
goal of bringing greater diversity to the Federal executive 
corps, unfortunately we are not in agreement with how to make 
this a reality. We do not believe that continuing to rely on 
the failed SES selection methodology of the past will deal 
different, more positive results. It is time to turn over a new 
leaf and dramatically improve the SES selection process.
    We believe that the diversity bills as presently 
constituted will do this. We believe that they will signal a 
welcome change toward improving diversity at the SES level.
    Chairman Davis, thank you for the opportunity to share our 
views and support for the Senior Executive Diversity Assurance 
Act.
    Mr. Davis of Illinois. Thank you very much.
    We will go to Ms. Young.

                   STATEMENT OF DARLENE YOUNG

    Ms. Young. Thank you, Chairman Davis.
    I thank you for having the foresight to develop and create 
this legislation that will ensure that African Americans, 
Hispanics, Asians, Native Americans, and women will have an 
opportunity to serve our Government at the highest level in the 
Senior Executive Service.
    Blacks in Government, along with my colleagues here, were 
ones who participated in supplying you with comments on July 
23, 2007. You graciously incorporated our recommendations into 
the bill. The recommendations are outstanding, and we 
appreciate all the work that you are doing to get this bill 
passed. BIG is very comfortable with the bill and looks forward 
to the passage. This will make our Government leadership look 
like America, which is the representation of all Americans.
    We have a pool of minorities in the pipeline that are 
currently certified by OPM and qualified to step up and serve 
our Nation as Senior Executive Service leaders. These bills are 
much needed, and Blacks in Government is awaiting the day of 
passage of these bills.
    To change the proposed legislation would suggest that 
minorities would continue to be unrepresented in our senior 
leadership of our Government. Essentially, not passing the bill 
would state that the status quo would be maintained, and that 
is unacceptable to BIG.
    It saddens me that we are on the eve of Dr. Martin Luther 
King's death, which we as Americans are about to celebrate 40 
years after his passing, that we are still fighting for the 
justice and the fairness in the workplace. When will the dream 
be truly lived in all facets of our lives?
    Thank you for giving Blacks in Government an opportunity to 
reaffirm our support for this Senior Executive Service 
Diversity Act, H.R. 3774, and S. 2148.
    Again, BIG awaits, ready to celebrate the passage of these 
bills.
    Mr. Davis of Illinois. Thank you very much. I want to thank 
all of our witnesses.
    Let me just begin and let me make sure, Mr. Bransford, that 
I understood and that I understand your position and your 
testimony. Did you indicate that you felt that institution of 
the panels in the legislation might create a level of 
bureaucracy that could, in fact, impede implementation of the 
concept and actually make it more difficult or delay increasing 
minority representation within the ranks of the SES?
    Mr. Bransford. Mr. Chairman, it is the view of the Senior 
Executives Association and the career senior executives that we 
have talked about this issue with that creating a requirement 
that these panels be created with one minority, one woman, and 
one other would actually delay the process, would create 
eventually a mentality of check the box among the bureaucracy. 
It would be a bureaucratic requirement which, in our view, 
might not be effective in the long run.
    It was the belief of our association that an alternative 
would be to create effective leadership. We have submitted that 
proposal in detail with our written testimony. And it is our 
position, not that it be a voluntary selection panel, but that 
agencies be required to use the selection panels as outlined in 
the bill unless they implement one of these effective diversity 
subcommittees which actually has the power, the authority to 
veto SES selections and the responsibility to create a 
pipeline. It is only then that we think that the agency would 
be demonstrating the type of leadership necessary to then 
relieve it of the requirement to have a panel.
    So we are not suggesting that anything be voluntary. We are 
not suggesting business as usual. We are suggesting that either 
they do business as in the bill currently or they demonstrate 
effective leadership in promoting diversity.
    Mr. Davis of Illinois. And I guess at the very core of my 
thinking relative to our shaping of the legislation and 
relative to our look at historical efforts is the notion that 
absolute subjectivity is probably as great as absolute 
objectivity, and that in order to arrive at this notion of 
objectivity, that much of it is like beauty: it is in the eye 
of the beholder. And different people just see different things 
based upon their experiences, based upon what they have been 
taught, based upon what they have been made to believe, based 
upon what they have been helped to believe.
    My fear is that, as we go down the road to change, there 
are certain things that people will just never see unless they 
get the opportunity; that had Jackie Robinson not gotten the 
opportunity that people just would not have seen his ability to 
play baseball the way that he did, or his understanding of the 
game.
    I guess my question would be to other panel members. How do 
you react and how do you respond to Mr. Bransford's proposal, 
since we have all had an opportunity to hear and since all of 
you have been engaged in these processes? Perhaps we begin, Mr. 
Brown, with you.
    Mr. Brown. Mr. Chairman, as I indicated, we do not support 
that position, for a couple of reasons. One, I find the 
terminology gatekeeper very interesting, but, nevertheless, in 
any case this is not in addition, it is not to create an 
additional layer; this is a substitute for the process that is 
ongoing right now that is not working by the Government's own 
statistics. So that is what we see as key in the bill here. It 
provides a diverse panel and it is a better way, if you would, 
of doing business.
    We have talked to our members, and many of our members--and 
there are certain agencies that have a very informal process 
that they are using right now. We know of a particular agency 
where one individual has selected everyone from GS-14 up 
through the SES, and there is no one of color at the GS-14 or 
above level in that agency. Because of a confidentiality that 
we share with our members I can't mention the agency, but this 
is the kind of data that we are collecting.
    Then, when you look at statistics, you say where is the 
concrete ceiling, not the glass ceiling, where is the concrete 
ceiling. And so that is why we say it is time for change, it is 
time to do it different, not to add anything on, but to 
substitute a process that will give us better results.
    Mr. Davis of Illinois. Ms. Trent.
    Ms. Trent. Thank you, sir. FEW is very, very comfortable 
with the bill as written, and I am not sure what kind of 
whatever we are trying to play here, but I came over for two or 
three sessions and gave up my time, queried my membership on 
many, many levels to ask about various words and various 
phrases in this. My membership is behind this 100 percent. 
During the various meetings that we had when we were penning 
this piece of legislation it was suggested that perhaps the 
word or a woman would not be appropriate on the panel, that it 
might be easier to pass without a woman on the panel, and I 
said no, the facts do not lie. I am digging my heels in. These 
are desperate times, and they require huge, gigantic changes, 
and if we are going to do it, let's just do it, do it right, 
and let's go for it.
    FEW is very, very comfortable with the way the bill was 
written, or I would not have had my members go out and send 
letters to their elected officials, so I like it as it is. FEW 
likes it as it is.
    Mr. Davis of Illinois. Thank you.
    Doctor.
    Mr. Eoyang. We support the bill as written. I understand 
Mr. Bransford's concern about additional delays in bureaucracy; 
however, I have every confidence that agency management will 
put sufficient resources and time to select their senior 
executives in an appropriate and timely way, because it is that 
important to them.
    Mr. Davis of Illinois. Mr. Osegueda.
    Mr. Osegueda. Chairman Davis, I would like to cite a couple 
of figures. At the Department of Education and the General 
Services Administration there is one Hispanic at the career SES 
level. At the Department of Transportation there are two 
Hispanics. That is 1 percent. State, two Hispanics. The 
Department of Defense, with 1,200 career SES positions, 1.4 
percent are Hispanics. Nearly all other executive or 
legislative branches have a similar picture.
    NAHFE believes that if we continue business as usual we 
will never go beyond these figures, so we support the bill as 
it is constituted at the present time.
    Mr. Davis of Illinois. Ms. Young.
    Ms. Young. BIG is definitely in favor of the legislation as 
it is. We also did a campaign to our Congress folks to support 
the bill. At this point I am like Ms. Trent. We spent a few 
hours coming over here to debate on what should and should not 
be a part of that. I think during some of that we had a little 
bit of that information provided to us and we did not agree, so 
I would agree that the bills should go forward as they are, and 
BIG is supporting that.
    Mr. Davis of Illinois. Let me just thank all of you. I 
think that there are lots of different ways to look at 
different opportunities, and as you, Ms. Young, were making 
your comment earlier, I thought of the fact that a few days ago 
I happened to pick up a book and I was reading the Preamble to 
the Constitution, and I thought of how great this country is, 
and those words continue to reside with me, where men with the 
best of intentions wrote that we hold these truths to be self-
evident, that all men were created equal. Quite frankly, I 
really think they meant men. I really do believe that they 
meant men. And it has taken us a long time to have women come 
full square, and we still have not gotten there into that 
equation.
    I also think that they were operating with the best of 
their intentions as they reached a compromise relative to the 
presence of Black people in this country whom they counted as 
three-fifths of a person with something called the three-fifths 
compromise.
    As a result of a tremendous amount of struggle, and, as you 
mentioned the fact that we are on the 40th anniversary of the 
assassination of Dr. Martin Luther King, and, of course, 
tomorrow is that day, and we commemorate his life and his 
legacy, that it has taken a long time to get to the point where 
different population groups are feeling a sense of equity of 
opportunity as we go through even the process of electing a 
President for the United States of America. There seems to be a 
tremendous amount of interest in where we are now.
    I wouldn't be opposed to thinking that much of that 
interest has to do with the diversity of the candidates, and 
that diversity just may very well propel us into a new chapter 
in the history of the development of our country as people who 
had not surfaced surface to another level.
    I suspect that we have some of that within the ranks of the 
work force in our Government, and I believe that we owe it to 
every single person in this country to help them believe deep 
down within their hearts that they have the opportunity to rise 
to the highest level of opportunity relative to the work that 
they choose to do.
    So I thank you for coming and testifying, and give 
assurance that this subcommittee is going to do everything 
within its power to try and make sure that people can 
experience the realization of not only the dream of a Martin 
Luther King, but the dreams that they have if they are 
talented, willing to prepare themselves, willing to work hard, 
develop leadership ability and leadership skills, that they 
can, in fact, become SESers in this Government.
    So I thank you for coming to testify, for the positions 
that you have taken. We will adjourn this hearing.
    [Whereupon, at 5:10 p.m., the hearing was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4913.118

[GRAPHIC] [TIFF OMITTED] T4913.119

[GRAPHIC] [TIFF OMITTED] T4913.120

[GRAPHIC] [TIFF OMITTED] T4913.121

[GRAPHIC] [TIFF OMITTED] T4913.122

[GRAPHIC] [TIFF OMITTED] T4913.123

[GRAPHIC] [TIFF OMITTED] T4913.124

                                 <all>

</pre></body></html>
